<html>
<title> - THE WAY FORWARD IN IRAQ</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                          [H.A.S.C. No. 110-2]

                        THE WAY FORWARD IN IRAQ

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 11, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

38-367 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Regina Burgess, Research Assistant
                   Margee Meckstroth, Staff Assistant


















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, January 11, 2007, The Way Forward in Iraq..............     1

Appendix:

Thursday, January 11, 2007.......................................    75
                              ----------                              

                       THURSDAY, JANUARY 11, 2007
                        THE WAY FORWARD IN IRAQ
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     4
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense......................     6
Pace, General Peter, Chairman of the Joint Chiefs of Staff, U.S. 
  Marine Corps...................................................    10

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    79

Documents Submitted for the Record:

    Translations of video of Prime Minister Maliki on January 6, 
      2007 submitted by General Pace.............................    89

Questions and Answers Submitted for the Record:

    Mr. Calvert..................................................    97
    Mr. Hunter...................................................    97
    Mr. Jones....................................................    97
    Mr. Marshall.................................................    98
    Mr. Murphy...................................................   100
    Mr. Udall....................................................    98
                        THE WAY FORWARD IN IRAQ

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, January 11, 2007.
    The committee met, pursuant to call, at 1 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, the hearing will come 
to order.
    This is the opening hearing for the Committee on Armed 
Services in the 110th Congress. It is a pleasure to see all of 
my returning colleagues, as well as the new faces, and I will 
have to admit that it is a pleasure to have the gavel. And I 
especially appreciate the gentleman from California who gave 
the gavel to me at our organizational gathering just a couple 
of days ago, and I will do my best to use it as thoroughly as I 
possibly can.
    I appreciate your doing so. So, welcome.
    The purpose of this hearing is to discuss the President's 
proposal for the way forward in Iraq. Testifying on that 
proposal and ready to answer questions, of course we have our 
newly appointed Secretary of Defense, Robert Gates, and the 
Chairman of the Joint Chiefs of Staff, General Peter Pace. 
Secretary Gates has had a long and distinguished government 
career, culminating in his years as Director of the Central 
Intelligence Agency from 1991 to 1993. And we are blessed to 
have you, Mr. Secretary, and thank you for making this your 
very first hearing in the Congress of the United States.
    General Pace, of course, is an old pro in this room, as he 
is in the United States Marine Corps and is the leader of our 
joint forces. As always, General Pace, we count on your candor 
and your good judgment in performing our constitutional 
responsibility for oversight, as well as your duty under the 
Goldwater-Nichols Act, which was passed in 1986, which we would 
like to thank you for. I understand, General Pace, you do not 
have prepared testimony as per we had discussed earlier.
    I notice, if I may, on page five, Mr. Secretary, of your 
written testimony, you are going to turn to General Pace to 
provide the summary of the military installments of the 
President's plan. That, of course, is a critical piece of what 
the President laid out last evening, and our committee is given 
the responsibility for oversight of that. I understand the 
arrangement with you and General Pace was that the only formal 
testimony to be presented would be by you, Mr. Secretary, and 
the General would be available for questions during our time of 
interrogation.
    We, of course, had to waive committee rule XIII, by virtue 
of the fact of the President's speech last night, which 
requires witnesses to submit their testimony not less than 48 
hours before the hearing and, further, the part that you will 
turn to General Pace for was not included in your statement or 
a proposed statement by him. I am sure it was a matter of 
miscommunication, but I did wish to bring that to the members' 
attention because I undoubtedly will receive inquiry on that.
    But so we know, General Pace, when the Secretary does turn 
to you, we will accept your testimony as you have planned 
despite the fact that it is not laid out.
    Hopefully, you, Mr. Secretary, could provide us a summary 
at the end of the hearing so we can extend your remarks 
formally.
    Secretary Gates. Yes, sir.
    The Chairman. Now, I suspect this hearing may be marked by 
a bit of pessimism and a number of hard questions, so let me, 
Mr. Secretary, start on a positive note.
    I was enormously pleased to hear the President embrace a 
substantial and permanent increase in the size of our ground 
forces--the Army and Marines. This committee began receiving 
testimony to that effect in 1995 when, then, our military 
general, Lieutenant General Ted Stroup, testified we needed 
40,000 more troops. Sometimes I feel and my colleagues may feel 
like a broken record ever since. Every time I had a chance to 
say I needed more Army, more Marines, I was delighted to have 
the President and you, Mr. Secretary, chiming in on the chorus. 
Our soldiers, in particular, are worn out. This increase is a 
smart policy, and I am more than pleased to say, ``Better late 
than never.''
    A history lesson: in 1942, the War Department began 
planning for the administration of what would become the 
occupied areas of Europe. These plans progressed to the point 
where, by 1943, General George Marshall selected Major General 
John Hilldring to prepare plans for the civil affairs 
administrators and military governors in those occupied areas 
of Europe. General Marshall told him that the Army did not want 
the job, but they were going to do it properly, and they did 
it.
    Compare that to our situation today. After a remarkable 
drive into Baghdad in April of 2003, our troops found 
themselves asking each other, ``Well, what now?'' It was a good 
question. There was no plan issued to them. Such plans existed, 
however. General Zinni had one when he was the Central Command 
(CENTCOM) commander. The State Department had their ``Future of 
Iraq Project.'' We were told that some commanders subordinate 
to General Franks began planning on their own accord, but those 
plans never made it into the hands of our troops.
    Now, while I could run you through the efforts of retired 
Lieutenant General Jay Garner and the Office of Reconstruction 
and Humanitarian Assistance, his successor, Ambassador Paul 
Bremer, and the Coalition Provisional Authority and what has 
happened since the transition of sovereignty to the Iraqi 
people, I will spare you the litany of errors. There are 
detailed histories available for that in Tom Ricks' book, 
Fiasco, as well as in the book entitled Cobra II.
    In any case, the proof, as they say, is in the pudding, and 
we have got a mess on our hands in Iraq. The time for a so-
called ``surge'' in troop numbers was back in 2003 with, as 
General Eric Shinseki said, several hundred thousand troops and 
with a coordinated political and economic plan for the postwar 
reconstruction. Sadly, we are three and a half years too late 
and several hundred thousand troops short.
    Time has passed, and time has not been kind to the 
situation on the ground. Attacks and casualties are at an all-
time high, and while there is a democratically-elected 
government, it is not at all clear to me that Prime Minister 
Maliki has the ability or the will to control the violence or 
broker compromise among the competing sectarian and religious 
groups.
    There is no silver bullet, but I remain convinced that we 
must send a signal to the Iraqis that they must take a much 
greater responsibility for their own security. We must do this 
while we rebuild the strength of our forces, which has been 
sapped by repeated deployments and decimated equipment. Four 
percent--Mr. Secretary, you know this--four percent of all of 
the Army equipment seems to be in Iraq or in Afghanistan, and 
so much of it is not here on the listed training for the 
future.
    I continue to listen to all proposals. The gradual and 
responsible redeployment of some number of troops achieves both 
goals. Will this temporary increase in troops have a well-
defined mission? Will it quickly get us to the point of 
responsible redeployment? We have increased our troop levels in 
Baghdad before, four times as I understand it, and the violence 
has only increased.
    So, with those thoughts in mind, I visited the President 
earlier this week, and I listened to the speech last night, and 
despite the President's statement where he said, ``It is clear 
that we need to change our strategy in Iraq,'' he did not 
present a new strategy. It is only a change in tactics.
    A new strategy would have redefined the end state to 
something different and then laid out the ways and means to 
accomplish it. Instead, the President has offered some 
adjustments, but these adjustments do not represent a radical 
departure from what we are doing today.
    The military side of the plan might do some good in the 
short term if it is executed by capable commanders and if the 
Iraqi forces in the field step up to the challenges presented 
them, but there are issues of sustainability, and I hope you 
both will address how long this effort will be designed to be 
sustaining.
    But the pivotal element of this entire plan does not lie 
with the military plan; it is with the political will and 
commitment of the Iraqi leadership and of the Iraqi people. 
They must be ready to seize the moment to go after the 
militias, to purge sectarianism from the ministries' and the 
military's ranks and to allow the Iraqi security forces to go 
after the targets they must to bring security. The President 
says he has confidence in the Prime Minister, but we need to 
understand how the United States will hold the Iraqis 
accountable by measuring their progress and what will be done 
if the Iraqi government fails to deliver on its promises.
    Of all of my questions, Mr. Secretary, I worry the most 
about our strategic risk. Part of the committee's job is making 
sure the military can meet its future missions as well as 
today's operational requirements. This requires an examination 
of how much strategic risk we are taking as a result of being 
in Iraq on a sustained basis with the troop levels we have 
there, but when we look at these issues, we are trying to make 
sure that, in the worst case, our military could deter or fight 
a potential adversary who threatens America's interests. It is 
only by looking at our current operational demands and plans to 
increase those demands and determine whether those demands 
increase our strategic risk for meeting future challenges. If 
they do, it is our obligation to take steps to reduce that risk 
because we must ensure that we can protect the American people 
and its interests today as well as in the future.
    This committee must take a very serious look at these 
questions. Today is the first of several hearings on this 
subject.
    Again, I thank you for making this your very first hearing. 
There will be future hearings to pursue these issues in depth 
for their views, with the Army Chief of Staff, with the 
Commandant of the Marine Corps, to discuss strategic risk and 
both the readiness and personnel implications of it. Our first 
step is to hear from you gentlemen, and I look forward to your 
testimony.
    One administrative note to my members. I intend to adhere 
to the five-minute rule at this and at the other hearings. Of 
course, the gentleman from California whom, by the way, I owe 
an apology to. I introduced him previously as being from San 
Francisco--he is from San Diego--and he and I, of course, by 
rule, are exempt from that, but we will do our best to be as 
brief as humanly possible.
    Before I yield to my friend from California, you may have 
been wondering where Solomon Ortiz was for a couple of days. 
Congressman Ortiz, our friend from Texas, was attending the 
ceremony of his son. He is being sworn into the state 
legislature of the State of Texas, and we are so proud for you 
as well as for him, Solomon. I am told that he graduated from 
Texas A&M that, Mr. Secretary, you are a graduate of.
    Let me yield to the gentleman who has been my friend and my 
partner through the years, and we thank him for his courtesy, 
again publicly, for making the transition work and work 
smoothly, my friend and ranking member, Duncan Hunter, from 
California.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Mr. Chairman, thank you, and thanks to our 
guests for being with us this morning.
    And, Mr. Secretary and General Pace, let me start off by 
joining with the chairman on his strong affirmation that we do 
need to increase the size of the U.S. Marine Corps and the U.S. 
Army. This committee has actually led the increase that has 
taken place. We have moved the end strength from the Marine 
Corps up from 175,000 to 180,000, and we have moved the Army 
from 482,000 to 512,000. Your recommendation that is manifested 
in your statement, I believe, would take the Army up to 547,000 
and take the Marine Corps up to 202,000.
    We will make available to you our analysis of the 
Quadrennial Defense Review in the wake of the QDR in which we 
recommended an increase of eight Marine battalions, nine Marine 
battalions, and eight Army brigades, so I commend that to you. 
I will take a look at it and see if some of the analysis does 
not track with the current analysis going on in the Pentagon, 
but it looks to me like the numbers are not far apart in your 
recommendation and this recommendation that we did.
    Gentlemen, you have already served this country 
effectively, and we appreciate you. We appreciate your 
commitment. And, Dr. Gates, thanks for taking on this 
extraordinarily difficult challenge.
    Now, last night, the President outlined a new strategy for 
Iraq, and he told us that in this plan, as part of the plan, he 
is going to be calling up reinforcements to carry out the plan. 
Let me just state that I intend to support him strongly. Four 
thousand of those reinforcements are going to be going to Anbar 
province. I have talked to the Marine leadership; they have 
requested of those persons that increase in Marine strength. 
Seventeen thousand five hundred are going to be utilized in 
other provinces, primarily Baghdad and primarily to carry out 
what I refer to as the ``Baghdad plan.'' And I think the 
Baghdad plan offers a bolder use of Iraqi military forces and 
an innovative use of American forces.
    I want to go especially to the point that I understand that 
the plan involves a commitment by the Iraqi government to 
deploy 9 additional Iraqi battalions into the heart and battle 
within that city. Those battalions coming from the north and 
south of Iraq are coming from some of the peaceful areas that 
we have noted are the provinces in which some 27 Iraqi 
battalions have been stationed, and those 9 battalions will be 
joining in Operation Baghdad.
    I recommend going further and working with the Iraqi 
government to ensure that all Iraqi battalions participate at 
some point in what I would call ``combat tours'' of these 
hotspot or contention areas. As our witnesses know, I strongly 
believe that such redeployment will battle hard in the Iraqi 
units. It will also reinforce civilian control of the military; 
that is, when that battalion commander gets a call from the 
Ministry of Defense to move out and he does not saddle up and 
move out, that he is then replaced with a commander who will 
move out. It will also help develop the military chain of 
command and minimize what we are seeing now in localized 
militaries that have what I would call a ``community bias'' in 
your area of operations.
    Today I wrote a letter to the President recognizing the 
positive aspects of this new strategy and, in particular, what 
I call the Baghdad 3-to-1 plan; and please tell me during your 
testimony if it is other than as I understand it through the 
briefings that we have had. The 3-to-1 plan uses a combination 
of three Iraqi battalions and one U.S. battalion in a backup 
role in each of nine security sectors in that city. I have 
recommended to the President that that, in fact, is the case, 
and if it works in Baghdad, that we use this plan as a 
blueprint for handing off security responsibilities throughout 
Iraq.
    As I told the President, this plan leverages the Iraqi 
military's unique ability to operate in the urban environment 
that does not require high-tech. It is obviously important that 
they have the cultural understanding and language capability to 
do that, which Americans do not have, and it allows the 
Americans to support the operations by moving to what I would 
call our ``leverage positions'' of special operations, 
intelligence, firepower, precision strike, and logistics 
capabilities.
    The Iraqis that are in Baghdad will gain combat experience. 
This will improve their military capabilities. They will 
increase operational confidence through these combined U.S.-
Iraqi operations. And I would see--if this works in Baghdad, 
Mr. Secretary, I would see the opportunity to employ it 
throughout the country, but particularly those contention areas 
where you have three Iraqi maneuver battalions with one 
American backup battalion.
    And after the Iraqi forces hit their stride and are 
operating efficiently, the American battalion can then turn 
over to an Iraqi battalion, leaving essentially the security 
apparatus in the hands of the Iraqis.
    I think this can serve as a template, and I would hope that 
you would look at it and talk to the battalion commanders in 
theater and see if we cannot utilize it throughout the country, 
understanding, of course, that we have used this partnership, 
this combined arms and combined forces, in a number of 
operations. So let me just offer that to you, and we will give 
you some backup data on this recommendation.
    Let me just conclude by saying this: I think that this 
operation in Iraq is following the basic blueprint that we have 
followed in this country for 60 years in bringing freedom to 
other nations. Whether you are talking about Japan or the 
Philippines or El Salvador or dozens of other nations, that is 
to stand up a free government. Number two, you stand up a 
military capable of protecting that free government. Number 
three, the Americans leave, and right now we are involved in 
the most difficult challenge, which is standing up that 
military which is capable of protecting a free government.
    The President has a plan. He has vetted it with his 
military leadership. He has requested reinforcements to Anbar 
and to Baghdad to make this plan work, and I think it is 
incumbent upon us in light of the fact that we are engaged in 
combat right now, that reinforcements have been requested, that 
they are needed; and this 21,500-person increase takes us 
essentially to the same level that we were last year at this 
time.
    I recommend strongly to my colleagues that we support the 
military leadership, that we support the commander in chief 
and, Mr. Chairman, that we support the call for reinforcements.
    Thank you, Mr. Chairman.
    The Chairman. I thank my friend from San Diego. Did I get 
it right?
    Mr. Hunter. Very good.
    The Chairman. I got it right. Thank you so much.
    Mr. Secretary, the floor is yours.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman.
    Congressman Hunter, members of the committee, let me say at 
the outset that it is a pleasure to appear before this 
committee for the first time as Secretary of Defense and, I 
might add, on the anniversary of the conclusion on my third 
week on the job.
    The House Armed Services Committee has long been a 
steadfast friend and ally of our men and women in uniform and a 
source of support in meeting our Nation's defense goals. I 
thank you for that, and I look forward to working with you.
    Let me begin by advising you of two announcements that I 
made this morning. First, the President announced last night 
that he would strengthen our military for the long war and its 
terrorism by authorizing an increase in the overall strength of 
the Army and the Marine Corps. I am recommending to him a total 
increase in the two services of 92,000 soldiers and Marines 
over the next 5 years, 65,000 soldiers and 27,000 Marines. The 
emphasis will be on increasing combat capability. This increase 
will be accomplished in two ways.
    First, we will propose to make permanent the temporary 
increase of 30,000 for the Army and 5,000 for the Marine Corps. 
Then we propose to build up from that basis over a 5-year 
period annual increments of 7,000 troops per year for the Army 
for a total of, as Mr. Hunter said, 547,000; and 5,000 a year 
for 5 years for the Marine Corps until they reach 202,000.
    I am aware that this committee has been leading the 
national debate over the proper size of the military and, 
accordingly, I hope that you will join us in supporting this 
important initiative. It will take some time for these new 
troops to become available for deployment, but it is important 
that our men and women in uniform know that additional manpower 
and resources are on the way.
    Second, for several months, the Department has been 
assessing whether we have the right policies to govern how we 
manage and deploy members of the reserves, the national guard 
and active component units. Based on this assessment and the 
recommendations of our military leadership, I am prepared to 
make the following changes to Department of Defense policy.
    First, mobilization of ground force, ground reserve forces, 
will be managed on a unit basis instead of on an individual 
basis. This change will allow us to achieve greater unit 
cohesion and predictability in how reserve units train and 
deploy.
    Second, from this point forward, members of the reserves 
will be involuntarily mobilized for a maximum of 1 year at any 
one time in contrast to the current practice of 16 to 24 
months.
    Third, the planning objective for the guard and reserve 
units will remain one year of being mobilized followed by five 
years demobilized. However, today's global demands will require 
a number of selected guard and reserve units to be remobilized 
sooner than this standard. Our intention is that such 
exceptions will be temporary. The goal for the active force 
rotation cycle remains one year deployed for every two years at 
home station. Today, however, most active units are receiving 
one year at home before deploying again. Mobilizing select 
guard and reserve units before their five-year period is 
complete will allow us to move closer to relieving the stress 
on the total force.
    Fourth, I am directing the establishment of a new program 
to compensate individuals in both the active and reserve 
components who are required to mobilize or deploy early or to 
extend beyond the established rotation policy goals.
    Fifth and finally, I am directing that all commands and 
units review how they administer the hardship waiver program to 
ensure that they are properly taking into account exceptional 
circumstances facing our military families of deployed service 
members.
    It is important to note that these policy changes have been 
under discussion for some time within the Department of Defense 
and would be needed regardless of the President's announcement 
on Iraq last night.
    Finally, I am pleased to report that all of the active 
branches of the United States military exceeded their 
recruiting goals for the month of December with particularly 
strong showings by the Army and the Marine Corps. Our Nation is 
truly blessed that so many talented and patriotic young people 
have stepped forward to defend our Nation and that so many 
servicemen and women have chosen to continue to serve.
    A few words on the new Iraq strategy: last night, the 
President described a new way forward in Iraq, a new approach 
to overcoming the steep challenges facing us in that country 
and in that part of the world. I know many of you have concerns 
about the new strategy in Iraq and, in particular, are 
skeptical of the Iraqi government's will and ability to act 
decisively against sectarian violence and are skeptical, as 
well, about a commitment of additional American troops. The 
President and his national security team have had the same 
concerns as we have debated and examined our options in Iraq 
going forward, and yet our commanders on the ground and the 
President's intended nominee as the new commander in Baghdad 
believe this is a sound plan, in no small part because General 
Casey and other senior military officers have worked closely 
with the Iraqi government in developing it.
    Further, the President, Ambassador Khalilizad and General 
Casey have had prolonged and extremely candid conversations not 
just with Prime Minister Maliki but with other senior leaders 
of the Iraqi government, and have come away persuaded that they 
have the will to act against all instigators of the violence in 
Baghdad. This is, I think, the pivot point in Iraq as the Iraqi 
government insists on assuming the mantle of leadership in the 
effort to regain control of its own capital.
    I want you to know that the timetable for the introduction 
of additional U.S. forces will provide ample opportunity early 
on and before many of the additional U.S. troops arrive in Iraq 
to evaluate the progress of this endeavor and whether the 
Iraqis are fulfilling their commitments to us.
    With apologies for the miscommunication, Mr. Chairman, at 
the end of my remarks, General Pace will summarize the military 
aspects of the plan, but let me make just two points.
    First, this strategy entails a strengthening across all 
aspects of the war effort, military and non-military, including 
the economic, governance, and political areas. Overcoming the 
challenges in Iraq cannot be achieved simply by military means, 
no matter how large or sustained, without progress by the 
Iraqis in addressing the underlying issues dividing the 
country.
    Second, we must keep in mind the consequences of an 
American failure in Iraq. Multiple administrations of both 
political parties have concluded that what happens in Southwest 
Asia, the Gulf Region, and the Middle East is of vital interest 
to the security and prosperity of the American people. As I 
said in my confirmation hearing, developments in Iraq over the 
next year or two will shape the future of the Middle East and 
impact global geopolitics for a long time to come.
    Whatever one's views of the original decision to go to war 
and the decisions that have brought us to this point, there 
seems to be broad agreement that failure in Iraq would be a 
calamity for our Nation of lasting historical consequence. The 
violence in Iraq, if unchecked, could spread outside its 
borders and draw other states into a regional conflagration. In 
addition, one would see an emboldened and strengthened Iran, a 
safe haven and base of operations for jihadist networks in the 
heart of the Middle East, a humiliating defeat in the overall 
campaign against violent extremism worldwide, and an 
undermining of the credibility of the United States.
    The actors in this region, both friends and adversaries, 
are watching closely what we do in Iraq, and will draw 
conclusions about our resolve and the reliability of our 
commitments; and should we withdraw prematurely, we could well 
leave chaos and the disintegration of Iraq behind us. Further, 
governments in the region already are asking themselves, ``If 
Americans withdraw in defeat from Iraq, just how much farther 
and from where else'' might we withdraw?
    I would not have taken this position if I did not believe 
that the outcome in Iraq will have a profound and long-lived 
impact on our national interest.
    Mistakes have certainly been made by the United States in 
Iraq just like in virtually every war in human history. That is 
the nature of war, but however we got to this moment, the 
stakes now are incalculable.
    Your senior professional military officers in Iraq and in 
Washington believe in the efficacy of the strategy outlined by 
the President last night. They believe it is a sound plan that 
can work if the Iraqi government follows through on its 
commitments and if the non-military aspects of the strategy are 
implemented and sustained.
    Our senior military officers have worked closely with the 
Iraqis to develop this plan. The impetus to add U.S. forces 
came initially from our commanders there. It would be a 
sublime, yet historic, irony if those who believe the views of 
the military professionals were neglected at the onset of the 
war were now to dismiss the views of the military as irrelevant 
or wrong.
    Mr. Chairman, that concludes my opening statement, and with 
your permission, I will ask General Pace to say a few words 
about the military plan itself.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 79.]
    The Chairman. You bet.
    General.

 STATEMENT OF GEN. PETER PACE, CHAIRMAN OF THE JOINT CHIEFS OF 
                    STAFF, U.S. MARINE CORPS

    General Pace. Mr. Chairman, Mr. Hunter, members of the 
committee, thank you for this opportunity to be with you.
    I would like to echo the secretary's thanks to all of you 
for your very strong, consistent, bipartisan support of all of 
us in the military. Thanks to many of you who have traveled to 
see the troops and many of you have gone to see our troops in 
the hospitals. Your attention to that, your concern, makes a 
difference to all of us in uniform, and we thank you for that.
    I would also like to thank the incredible young men and 
women who serve in our Armed Forces. It is my honor to sit 
before you as their representative as they continue to amaze us 
all with the way that they strap on the duty that they have 
sworn to uphold and the way that they do it. And especially to 
their families--every decision to deploy forces impacts 
families, and this one will as well. Our military families 
serve this country as well as anyone who has ever worn a 
uniform, and I will say that publicly.
    The military plan that has been developed has been 
developed jointly by General Casey and his U.S. commanders and 
his counterpart in the Iraq army and his commanders, and we 
have worked it through in great deal in support of Prime 
Minister Maliki's initiative, and the number one, most 
important difference between this plan and other plans is the 
political environment in which it will be executed.
    But to the plan itself, it calls for the deployment of an 
Iraqi commander of all of Baghdad; that has begun, the 
assignment of two Iraqi commanders, one east of the river and 
one west. The selection of those commanders was done jointly by 
the Iraqi ground forces commander and by General Casey to have 
Baghdad divided into nine districts. Each of those districts 
will have an Iraqi brigade in it.
    Those brigades and their leaders were also jointly selected 
by the Iraqi and American leadership. In support of each of 
those Iraqi brigades will be a U.S. battalion so that in each 
sector, as Mr. Hunter has said, it will be several Iraqi 
battalions plus a U.S. battalion, and in each sector, there 
will be three or four police stations that will serve as the 
hub of operations from which the forces that are located 
there--which will be a minister of the Iraqi army, the Iraqi 
national police, the Iraqi local police, and U.S. and coalition 
forces--from which they will do their daily patrolling, the 
door-to-door work to let the population know that they are 
there to take census-type information and to provide the street 
awareness and presence that allows the security to come to the 
fore. From those stations will be conducted the raids that may 
be necessary, and from those stations will come the quick 
reaction forces for some of the Iraqi forces that get into 
trouble.
    In analyzing what we call ``troop to task,'' meaning what 
do we need to do and how many folks do you need to do it, in 
analyzing that, General Casey and his Iraqi counterparts have 
determined that there are more forces needed--more Iraqi 
forces, for sure--and the Prime Minister and his government 
have promised that they will allocate three more Iraqi brigades 
into Baghdad--the first of those is already moving; the next 
two are scheduled within the month--that the commander will 
have the freedom of operations to do what he must do to impose 
the rule of law on all, that there will be no political 
interference with those troops on the ground who are carrying 
out the mission that they have been given, and that the rule of 
law and the rules of engagement will apply to all criminals 
regardless of which community they come from, that mixed 
communities and Sunni communities and Shi'a communities will 
all be treated the same.
    To do this, we are going to need additional U.S. forces. 
General Casey and General Abizaid have asked for those 
additional forces, as have the commanders below them. The 
additional forces will do what I have mentioned, which is to be 
able to have a battalion of our forces available with each 
Iraqi brigade, and that will also strengthen the size of the 
embedded teams that we have on each Iraqi brigade, battalion, 
and company so that when the Iraqi units get into trouble or 
need fire support, we are able to provide it to them quickly 
and efficiently.
    In addition, for success in Al Anbar province, the Marine 
commander out there has asked for and General Casey and General 
Abizaid have asked for an increase of about 4,000 troops out 
there. The Sunni sheiks in that region have led the way in 
fighting al Qaeda. They have recruited their own sons in the 
thousands to join their local police forces. In fact, about 
1,000 Sunni youngsters right now from Al Anbar are in Jordan at 
the police academy, and these additional U.S. forces at Al 
Anbar will allow those sheiks and the Iraqi armed forces that 
are out there to provide continued security to take advantage 
of this window of opportunity as represented by the leaders out 
there. So, collectively, the military commanders, both U.S. and 
Iraqi, have asked for this interest, and those of us in 
advisory positions agree with their request.
    Mr. Chairman, I will save any further comment about how I 
got to my own convictions about this to the Q&A piece, but I do 
want to state for the record that I am of the conviction that 
this military plan, properly part of the new political emphasis 
and the new economic plus-up, can provide the success we are 
looking for.
    Thank you, sir.
    The Chairman. General, thank you very much.
    We all know the conflict. This is not going to be won on 
the battlefield. We know it is going to be a matter of will 
with leaders of the Iraqi force as well as the Iraqi people; 
and we spoke--both of you spoke about commitments by the Iraqi 
government and Prime Minister Maliki.
    Mr. Secretary, are there any additional commitments made by 
the Iraqi prime minister or the Iraqi government other than the 
ones General Pace just outlined for us?
    Secretary Gates. Mr. Chairman, I think that those are the 
principal ones. Clearly, the ones that have been most important 
to our forces are that the Iraqi military will be in the lead 
in these operations.
    Another is that no parts of the city will be immune, that 
there will be no more calls from government offices to Iraqi or 
U.S. forces who have detained someone who is politically 
connected, demanding that they be released. That will not--we 
are assured that will not happen.
    We have been assured of additional Iraqi forces that will 
be brought into the capital.
    I think those are the principal commitments.
    The Chairman. Thank you very much.
    I noticed in your remarks, Mr. Secretary, you used the 
phrase ``if the Iraqi government follows through on its 
commitments,'' and General Pace and you have just told us of 
the Iraqi commitment that they made. And we all, of course, 
know the importance of governance, as well as individuals 
living up to commitments.
    Mr. Secretary, what if the Iraqi government does not live 
up to those commitments? What is the punishment or the outcome 
of such violation of their commitments? I think this committee 
should know should that come to pass.
    Secretary Gates. First of all, I think it is important to 
note that the commitment is not just a commitment that has been 
made by Prime Minister Maliki. The President, the Ambassador 
and others have talked to President Talabani, to Sunni 
representatives in the government, to other Shi'a 
representatives, such as Mr. Hakim, and made it quite clear 
that this is not just a burden on the prime minister but on the 
entire Iraqi government.
    As I indicated in my testimony, I think that we will see 
fairly early whether the Iraqi government is prepared to 
complete its--to carry out its commitments, and there was 
another one that I should have mentioned, and that is that they 
have committed to spend up to $10 billion of their own money on 
economic development as part of this effort.
    Because we will know that fairly early and before very many 
American additional troops have been sent to Iraq, we will be 
in a position, obviously, to go back to them and point out 
their failure to live up to their commitments if we see that in 
a tactical situation in one place or another, or if we hear 
that there has been a call from a government office. I think 
the thing to remember about this is, it is going to unfold over 
time, and so you are likely to see perhaps a small violation of 
these commitments, perhaps somewhere along the road, and that 
is the point at which we quickly go back to the Iraqi 
government and make sure that they enforce discipline in their 
own house.
    Beyond that, the President has made very clear both in his 
speech last night and in his talks with the Iraqi government 
that American patience is limited, and obviously if the Iraqis 
fail to maintain their commitments, we will have to revisit our 
strategy.
    But I would say this--and it is an important difference 
this time--it is the Iraqis who have come to us with this plan. 
It is the Iraqis who are insisting on leading this undertaking. 
It is the Iraqis who are insisting that they have to get 
control of their own capital and that they need some help from 
us to do that. So I think this is really--when I refer to my 
remarks to a ``pivot point,'' it is the apparent willingness of 
the Iraqis finally to step up to their responsibilities in this 
arena that we think is a change. The willingness to make these 
commitments, in itself, is a change, and we all will be 
watching very closely to ensure that they adhere to the 
commitments that they have made.
    The Chairman. Mr. Secretary, the bottom-line answer to my 
question is, we would revisit our strategy; is that it, sir?
    Secretary Gates. If the Iraqis fail to keep their 
commitments, I think we would have to do that.
    The Chairman. Thank you very much.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Just a couple of questions--and, General, perhaps we need 
to talk in one of the following briefings, talk in a classified 
setting--but I think it is going to be crucial in these sectors 
in the city, in these urban areas, to ensure, one, that the 
American forces are used efficiently in the way that the 
agreement proposes with Iraqi forces in the lead, Americans in 
backup; and second, that there be a lot of attention to detail 
with respect to force protection of American forces in this 
situation.
    And I would just ask you, have you scrubbed--have you 
looked at the details of the plan as it exists now with respect 
to those two factors?
    General Pace. Sir, I have, and I am very confident in what 
is laid out.
    First of all, very importantly, all U.S. forces will remain 
at all times under U.S. command.
    Second, as we embed U.S. forces down to lower levels, down 
to the battalion and company levels, they will be of large 
enough size to protect themselves as they go about doing the 
advisory work that they are doing.
    Third, as an example of the way this would work, on the 
last couple of days of operations in Baghdad that have been on 
TV, you see Iraqi units in the lead being supported by U.S. 
firepower and U.S. advisors in a way that is an example of how 
this will unfold as we go forward.
    Mr. Hunter. Thank you, Mr. Chairman.
    The Chairman. Mr. Spratt.
    Mr. Spratt. Thank you both for your testimony.
    I understand that, on a smaller scale, these tactics--
``clear,'' ``build'' and ``hold''--have been tried before and 
in specific, in Baghdad itself.
    On 24 August, the mission failed for several reasons. One 
was, the battalions to be provided by the Iraqis did not show 
up. Two of the--four of the six that were promised never showed 
up. Second, the police showed up, but they also showed their 
sectarian colors and were prone to take the side of the forces 
that were part of the problem.
    Number one, how do we overcome these problems this time, 
and number two, is there some way that we could test this on a 
smaller scale before we drive five brigades into it to see if 
these problems are still going to plague the operation?
    I will put the question to both of you or to either of you.
    Secretary Gates. Mr. Spratt, let me begin and then turn to 
General Pace.
    As I understand it, the problem with ``clear,'' ``build,'' 
and ``hold'' last year was that the ``clear'' part of the 
operation went fairly well and fairly smoothly.
    The problem is that there were insufficient forces, both 
Iraqi and American, for the ``hold'' phase of the operation, 
and so one of the lessons learned that the President referred 
to last night is the need for additional forces to hold these 
areas and keep the violence at bay long enough for some of 
these immediate and then near-term economic development 
opportunities to begin to kick in, whether it is making the 
quality of life better quickly by getting some electric power 
in there or connecting the sewers or picking up the trash, on 
down to job creation and so on. So the ``clear'' part was well 
done.
    As to the ``hold'' part, there were insufficient forces. 
And the analogy that I have used is ``the tide came in and the 
tide went out,'' and there was no--at the end, you could not 
tell there was a difference. The difference is, this time, to 
try and get some time under the ``hold'' phase for the 
``build'' actually to take place.
    One of the things that is different this time is the 
additional forces. Another thing that is different this time is 
that there is considerably more focus on the ``build'' phase in 
terms of our own efforts, but also in terms of the Iraqi 
understanding of the need for them to show up and with their 
money begin to take some action on the economic front.
    So I think that, very quickly, is my assessment, looking 
back on it, as I have understood it since arriving. But let me 
ask General Pace to add.
    General Pace. Mr. Spratt, your concerns are well-founded. 
You are correct that the Iraqi armed forces did not show up as 
was promised last time. This time, the first brigade of Iraqis 
is already en route to their capital, and some of them are 
there. Our first brigade, as we speak, is moving forward into 
Iraq. The second and the third Iraqi brigades are due to arrive 
in Baghdad before our second brigade arrives in Baghdad, so as 
this force flow is laid out----
    Mr. Spratt. We reserve the right to abort, and the 
expectation is we may abort the whole operation if their forces 
do not show up?
    General Pace. Sir, we expect this to work, and we are 
focused on making this successful, but we do expect the Iraqi 
government to provide the resources that they say they will 
provide, and we have alternatives available to us, as the 
secretary said, to relook at the strategy if the premises on 
which this plan is based turn out to be inaccurate.
    However, all of what the Iraqi leadership is saying is 
different and all of what has happened to date has been 
positive with regard to the things they said they would do and 
what has happened. Everything they said they would do by now 
they have done.
    Mr. Spratt. Thank you very much.
    The Chairman. Thank you so much.
    Mr. Saxton, please.
    Mr. Saxton. Mr. Secretary, welcome. Thank you for what you 
are doing.
    General, good to see you again. Thank you for what you are 
doing.
    I am interested to know how the activities--how the 
presence and activities of al Qaeda were taken into 
consideration in developing this plan. I would like to just 
frame the question if I may. It seems to me to be a very, very 
serious part of our problem and our efforts that are geared 
toward solving the problem.
    I have here a letter that was written from al Zawahiri, of 
course, the second in command of al Qaeda, to Zarqawi. The 
letter is dated July 9, 2005, and it was declassified by the 
Director of National Intelligence on October 11, 2005, and I 
just want to read some very brief parts of it.
    After the perfunctory opening, it says, ``It has always 
been my belief''--this is, of course, al Zawahiri talking, 
writing. ``It has always been my belief that a victory of Islam 
will never take place until a Muslim state is established in 
Lavant and Egypt and in the neighboring states of the peninsula 
and in Iraq.''
    And then he goes on in another part of the letter to talk 
about ``our long-term strategy.'' He says it has four stages. 
The first stage is to expel the Americans from Iraq. The second 
stage is to establish an Islamic authority and then to develop 
it into the level of a caliphate. The third stage is to extend 
the jihad wave to the secular countries neighboring Iraq, and 
the fourth stage is to clash with Israel.
    I have another document here that comes out of West Point 
from the Combating Terrorism Center. It is a writing by Brian 
Fishman of that organization, and it says that, on October 15, 
2006, al Qaeda in Iraq announced that it had seceded from Iraq 
and declared an independent state in the country's Sunni-
dominated western regions. This new political entity is called 
the ``Islamic state of Iraq.''
    I wanted to bring this question to you in that context 
because I believe that this is an extremely serious part of the 
problem that we face and is, in fact, at the root of much of 
the sectarian violence that is currently going on in Iraq.
    Would you comment on that for us, Mr. Secretary?
    Secretary Gates. Yes. It clearly has a major impact on the 
explosion of sectarian violence. There were the al Qaeda and 
the insurgents, but especially al Qaeda had been working for 
some time to try and stoke sectarian warfare in Iraq, and they 
finally succeeded last February with the bombing of the Samarra 
mosque. So the notion that this was a spontaneous outbreak is, 
I think, mistaken. The fact is that there have been a number of 
provocative acts by al Qaeda trying to provoke sectarian 
warfare, and they finally succeeded.
    One of the areas where we actually see some positive signs 
already is in Anbar province, which is the province that you 
were referring to in the correspondence that you read. As 
General Pace indicated, the local sheiks have decided to try 
and contest al Qaeda's ambitions in Anbar. They have aligned 
themselves and aligned with us, and we are seeing some signs of 
success and weakening in al Qaeda in that area. In fact, it was 
during General Pace's and my visit to Baghdad a couple of weeks 
ago that General Odierno talked to us about these successes and 
indicated that he thought he could reinforce this success with 
the addition of some additional forces, some additional Marines 
in Anbar province; and that was really the origin, I think, of 
the request for the additional forces for Anbar province.
    So it is clear that Anbar is critical to the ambitions of 
al Qaeda in Iraq, and I think we have made some headway.
    General, would you like to add anything?
    Mr. Saxton. A great summary sir, thank you. Thank you very 
much.
    General Pace. Thank you.
    Mr. Saxton. Thank you very much.
    The Chairman. Mr. Ortiz.
    Mr. Ortiz. Mr. Secretary, congratulations on your new 
position. General Pace, good to have you with us.
    Today I ask my question on behalf of the 3,000 soldiers who 
have been killed and the 20,000 wounded in the last 4 years in 
this war. Four years ago General Shinseki told the 
Administration and this Congress that our mission in Iraq would 
require several hundred thousand troops. We went into this with 
significantly less. Since then, Congress has heard from 
soldiers on the ground that they need more troops to accomplish 
their mission, yet senior commanders consistently testify that 
no additional troops are necessary. At this time the armed 
forces' equipment stock has been damaged and is in a constant 
state of disrepair, putting our troops at risk.
    Now with the new way forward, we are escalating the number 
of troops in Iraq. This means deployment will be extended, 
units will deploy earlier in the theater, with less time to 
train and equip.
    And here are my questions: why now, and what is different 
from three and a half years ago when they said that we needed 
250-300,000 troops? What is different from then to now, and 
where is the equipment coming from? And how, since most of, or 
a lot of the reserve units and national guard units are going 
to be activated, where are our first responders going to be? 
Most of the policemen and firemen and doctors belong to a unit. 
They serve in the national guard.
    I have had 25 young men killed in my district since the war 
started in Afghanistan. I go and I talk with the families and 
these are the types of questions they ask me: why now? Why 
didn't they put the 250,000 they wanted or were recommended by 
General Shinseki and Secretary White?
    I think we need to answer these questions so that our 
public knows why not in the beginning. Thank you.
    General Pace. I will start, Mr. Ortiz, if I may. First of 
all, General Shinseki's comments about X-hundred thousand of 
troops were the answer to testimonial questions he was being 
asked in the Senate Armed Services Committee. He demurred 
several times, but when asked a third time about how many 
troops would it take, he said he thought several hundred 
thousand. That was the answer he made to the senator at the 
time.
    In the deliberations before that time and after that time, 
as a member of the joint chiefs, and I was a vice chairman at 
the time, General Shinseki was not advocating for that number 
as an answer; he gave it as a guesstimate of what it might be. 
So I just want to put it in that historical context.
    Second, what is significantly different now is that the 
Iraqi government is taking the lead and they are prepared to 
set the proper stage for success. I have been one who has said 
frequently, do not send extra troops just to do what the troops 
there now are already doing, but if there is a defined military 
mission and if it is supported and supporting political 
initiatives and economic initiatives, then it would be useful. 
In that context, this plan meets those criteria and that is 
what is different now for me, sir, than what it was just a 
couple of months ago.
    Mr. Ortiz. My time is up. Thank you very much.
    The Chairman. Thank you very much. Mr. McHugh.
    Mr. McHugh. Thank you very much, Mr. Chairman. Mr. 
Secretary, let me add my words of congratulations and 
appreciation to you. General Pace, always a pleasure and honor 
to see you. Thank you both for your service.
    Let me say that I am encouraged somewhat by the words I 
hear as to the intention of the Iraqi government. I share the 
words of Mr. Spratt, my colleague, that I just have my doubts 
the Iraqis will show up. The track record isn't there. And 
words are fine but actions are what count here.
    So let me rephrase a question that has been asked a couple 
of different times. Let's concede they will show up. What do we 
do if they don't act?
    We have talked about benchmarks; the President talked about 
benchmarks. I think those have been sorely missing. I think 
they are critical. Where in the benchmark time frame does the 
disarmament--disarming the militias occur, and what if they 
don't meet that benchmark?
    Secretary Gates. I think that, again, what we will see is 
this unfolding over time, and I think that the operation that 
we saw just in the last couple of days indicates their 
willingness to fight, as I understand it. And I will invite 
General Pace to add on, the operations will begin in mixed 
neighborhoods, both Shi'a and Sunni. That will provide an early 
indicator.
    I think the notion that the Iraqis are sitting on their 
hands while we are doing all the fighting is a mistaken notion. 
I was informed by one of our military folks a couple of days 
ago that now more than half of the casualties coming into our 
military hospitals in Iraq are Iraqi army.
    Mr. McHugh. Mr. Secretary, I don't want to be impolite, 
sir, but the Chairman is going to be very strict on his clock. 
I have been to Iraq six times and I never suggested or meant to 
suggest the Iraqi army is not stepping forward and taking heavy 
casualties. I was at Forward Operating Base Speicher when they 
brought in three helicopter loads to the hospital there. 
Couldn't agree more. I want to be clear so you can direct your 
comments.
    The politicians, the prime minister, what if they order us 
again, as they did just a number of weeks ago, to remove the 
barriers we had placed in Sadr City to control traffic and flow 
of air? What do we do and at what point? That is what I am 
concerned about. Because I view this at best as a last 
opportunity and a lost hope, and I am just wondering if I am 
being too dramatic about that.
    Secretary Gates. As I indicated in my response to the 
chairman, I think the first reaction, if we discovered that 
they were not fulfilling their commitments, would be to go back 
at them hard in terms of the commitments that they had made to 
us. And in terms of the entire leadership of Iraq, if at the 
end of the day they don't keep the commitments that they have 
made to us, as I indicated before, we would clearly have to 
relook at the strategy.
    Mr. McHugh. Let me rephrase it, if I may. What is the time 
frame of the surge? A year, 18 months, 6 months, and where do 
the benchmarks fit in that surge time frame?
    Secretary Gates. I don't think anybody has a definite idea 
about how long the surge would last. I think for most of us in 
our minds we are thinking of it as a matter of months, not 18 
months or 2 years. We clearly will know, as I indicated, I 
think within a couple of months or so, whether this strategy is 
in fact beginning to bear fruit.
    It is going to take a while. We are at the mercy of anyone 
willing to strap on a bomb and blow themselves up in terms of 
more bloodshed and more violence. But we will obviously be 
monitoring it, just as I know you all will be monitoring it as 
this situation unfolds.
    I think one of the benefits, if you will, of the way we 
will be sending our forces, the way the Iraqis will be sending 
their forces in, is that we will have a pretty good indication 
whether they are keeping their commitments and we can assess at 
the time what we need to do.
    General Pace. Sir, if I may, two key benchmarks: one, 
command of Iraqi forces. Nine of the 10 Iraqi divisions are 
going to be under direct Iraqi command by the end of the March, 
the tenth by the end of the June. And then of security in the 
18 provinces, all 18 provinces are due to be under the direct 
control of the provisional governors no later than November of 
this year.
    Mr. McHugh. Thank you. Let me just say in closing, as 
someone who has supported the President and who believes in 
what he is trying to achieve here, the frustration I think some 
of us feel is certainly not with our military. God love them 
for the challenges they face and the sacrifices they have made. 
But the civilian leadership in Iraq, I am afraid, still raise 
questions about their commitment. But I hope this is a step in 
the right direction. Thank you.
    The Chairman. Thank the gentleman. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. Thank you, Secretary 
Gates, and General Pace, for being here. Thank you both for 
agreeing to serve our country.
    A poll published by the Brookings Institute just last month 
shows that really an appalling 92 percent of the Sunnis approve 
of attacks on U.S.-led forces; 62 percent of all the Shiites 
leads to a total throughout the country of 61 percent of Iraqis 
approve of attacks on U.S. forces.
    Now, Mr. Secretary, you have only been here a few weeks, 
but I will remind you that early on, taxpayer-funded polls of 
Iraq showed that we had about an 80 percent approval rating. 
Within about a year and a half that number had flip-flopped to 
about 80 percent disapproval of U.S. presence. When the numbers 
went sour, our State Department quit furnishing those numbers 
to Congress on a regular basis. So if your numbers are contrary 
to this, I would like to hear them. But if your numbers are 
anywhere close to this, what I would like to know is how the 
addition of 21,000 troops changes a situation where 61 percent 
of Iraqis approve attacking American forces. How do you turn 
that around?
    Secretary Gates. Well, sir, I think that first of all, 
those are the first poll numbers like that I have heard, and I 
haven't seen any that are independent. I have no reason----
    Mr. Taylor. If I may, it was done, to the best of my 
knowledge, by an oufit called Zogby, paid for by American 
taxpayer dollars through the State Department. I would 
encourage you to take a look at them, sir.
    Secretary Gates. I will do that. I have no reason to 
question what you reported. The only thing I can imagine, and I 
confess I am no expert on Iraq, but if the Iraqis are unhappy 
with our presence and they are willing to attack us, my view 
would be that it is because the overall situation in Iraq has 
become so unsatisfactory, particularly in places like Anbar and 
Baghdad, in particular Diyala, north of Baghdad, and probably 
the fact that many of those Iraqis blame the United States for 
the mistakes that were made after the original ouster of Saddam 
Hussein that contributed to making life in Iraq much more 
difficult for many of them, even though they have been 
liberated from their oppressor. It seems to me, though, that it 
is very uneven in the sense of the reception that our troops 
receive in different parts of the country, the way that the 
Iraqi military has partnered with us, the relationships between 
many of these units that have developed.
    I think that the key is right now to turning around the 
attitude of Iraqis, is increasingly the turning over of the 
governance of their country to their own elected government, 
which is something new in the last year, and trying to 
establish the security situation in which life can begin to get 
better for the large number of Iraqis in the three or four 
provinces that are the most violent right now.
    So it seems to me that the Iraqi leadership of this 
campaign, Iraqi investment in their own economic development, 
Iraqi control of their own military forces, and over time a 
diminution of American presence, are all key to the long-term 
relationship that the United States will have with Iraq. I have 
some confidence that if we can--we don't want permanent bases 
in Iraq.
    Mr. Taylor. Mr. Secretary, how hard would it be for the 
President of the United States to say that publicly? Because I 
have been waiting for three years for the President of the 
United States to say that publicly. Have you encouraged him to 
do so?
    Secretary Gates. No, sir, I have not.
    Mr. Taylor. Would you?
    Secretary Gates. I think that the President was very 
forthright last night in acknowledging the mistakes----
    Mr. Taylor. I don't recall him saying that last night, and 
I think this is a key factor in the eyes of a lot of these 
people who are approving of attacks on Americans. I think that 
can turn some of them around. It is not a hard thing to do. But 
I am one of 435, he is the President of the United States.
    The Chairman. Mr. Hayes of North Carolina.
    Mr. Hayes. Thank you, Mr. Chairman. Gentlemen, welcome. 
Secretary Gates and General Pace, thank you for the men and 
women that you represent.
    Again, going back to the same theme, we have got some dates 
certain where the Iraqis ought to show up in Baghdad to 
implement the new plan. Are you both confident that they are 
going to show up in the prescribed numbers?
    General Pace. Sir, I am confident that the plan we have is 
a good plan when they do show up. There are no guarantees and I 
cannot guarantee what the Iraqi government is going to do. I 
can simply tell you what they have said they are going to do. 
If they do what they say they are going to do, then this will 
succeed.
    So far on appointing the commanders, on collaborating 
between U.S. commanders and the Iraqi commanders, on selecting 
the units to move to other places to Baghdad and on moving 
those troops, on the things they should have done by now, they 
have done it.
    Mr. Hayes. I appreciate that. It is very important, I think 
going forward, for people to understand it is a new plan, it is 
a new team. It does have support of this committee and the 
Congress because, as we speak, a brigade combat team of 
Airborne folks from Fort Bragg, the 82nd, are in Baghdad, as 
are other units from other locations. They, and their families 
particularly, and the folks back home need to know that we are 
supporting them, which we are. We are not supporting the idea 
of withdrawing funds for folks in the field.
    Having said all that, to follow up on what Ranking Member 
Hunter said, we have been asking that the Iraqis take 
possession and control of their fight. Now he said three to 
one. My math--and I think we make a mistake in explaining to 
the American people when we talk battalions and brigades 
instead of numbers--my math gives us a four to one Iraqi match 
to every new U.S. military commitment in Iraq.
    Can you be a little more specific or can you kind of narrow 
that down three to one, four to one, somewhere in between? If 
that is true, it indicates the Iraqis are taking the fight, 
that that is important. Can you help clarify that a little bit?
    General Pace. Sir, I can. Let me just use Baghdad as an 
example. Today when you add together the Iraqi Army, Iraqi 
National Police and Iraqi local police, there are some 42,000 
Iraqi security forces allocated to Baghdad. Today we have about 
24,000 U.S. troops allocated to the Baghdad region and then 
their three brigades and our two brigades will be added to that 
mix.
    Mr. Hayes. When you get through adding, with the surge what 
do you get? For 20,000 U.S. troops--make it 15 because part are 
going to Anbar--15 into Baghdad where the majority of the 
violence is, how many Iraqi new troops from safe areas, trained 
and equipped by U.S. forces, how many new ones are coming in?
    General Pace. Sir, the 42,000 Iraqis in Baghdad right now 
will be augmented by about 8,000 more Iraqis, taking that to 
50,000. The 24,000 U.S. in Baghdad right now will be augmented 
initially by two brigades, a total of 7,000, taking it up to 
31,000. In the pipeline will be another three brigades of 
U.S.--another 10,500 that can go to Baghdad, al Anbar, or not 
go at all depending upon the situation on the ground.
    Mr. Hayes. The math is still unclear but again I am trying 
to determine and reinforce my notion and Mr. Hunter's notion 
that to the American people this is becoming much more of an 
Iraqi right. We are going to occupy territory with Iraqis, not 
with Americans, so that we can hold it once we win it, which 
our military has done before. Any clarification that you can 
give there would be again very helpful.
    General Pace. Sir, it is about two to one right now is as 
about as clear as I can make it.
    Mr. Hayes. Two to one. On the record, that is 
understandable. Again, we have got clear benchmarks. I thank 
you for being here, particularly thank you for the men and 
women that serve. I yield back.
    The Chairman. Thank you so much. The gentleman from Hawaii, 
Mr Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman. General Pace, 
thank you for giving us the opportunity to actually see how 
this thing is supposed to work at the gut level.
    Now, speaking as a former probation officer and as someone 
who had jurisdiction as a city councilman over a police 
department, I want to know--and I had to try and get this 
because we didn't have anything written in front of us--did you 
say that this plan that you are talking about in the local 
communities came from the Iraqis or did it come from Americans?
    General Pace. The initial plan was put forth by Prime 
Minister Maliki to our President when they met.
    Mr. Abercrombie. They should have had at least one police 
chief from somewhere to give them some guidance. This is the 
craziest, dumbest plan I have ever seen or heard of in my life. 
You are proposing a mixture, your word, a mixture of national 
police, local police, national army and U.S. military to 
operate out of local police stations to go into neighborhoods 
to apprehend criminals to begin to clear and build on that 
basis, and you haven't the slightest idea of how many days, 
weeks, or months it is going to take. What on earth leads you 
or the President or the prime minister or anybody in the joint 
chiefs to think such a plan will work anywhere in the world? 
There is not a police chief in this country or any other 
country in the world that would sustain such a plan with mixed 
control. There is no way for anybody under such circumstances 
to be able to indicate who is in charge or who has authority of 
whatever action they are supposed to take. How is it supposed 
to work?
    General Pace. I understand your concern, sir. Once the 
prime minister and the President agreed that the prime 
minister's plan was a good plan to facilitate, the U.S. 
commanders and the Iraqi commanders sat down together. Iraqi 
police, Iraqi army, and U.S. and coalition commanders, they 
together--General Casey and his subordinates and the Iraqi 
leaders and their subordinates met and worked through the 
details of this plan. There is one commander per district. 
There is an overall commander whose name is Lieutenant General 
Abud.
    Mr. Abercrombie. For Baghdad?
    General Pace. For Baghdad. He is a general in the Iraqi 
army. He was appointed yesterday or the day before by the prime 
minister as the overall commander.
    Mr. Abercrombie. So American troops will be taking orders 
from an Iraqi general in Baghdad.
    General Pace. No, sir, they will not.
    Mr. Abercrombie. Then how is it going to work?
    General Pace. Thank you, sir. Underneath the Iraqi 
commander are two Iraqi division commanders, one east of the 
river and one west of the river. Under those two generals, 
still Iraqi, are the Iraqi brigade commanders who are 
responsible for everything in their nine separate districts in 
the region. Those Iraqi brigade commanders are partnered with 
our U.S. battalions and they will operate in those areas just 
like they are operating in the streets of Baghdad right now 
with the Iraqis doing the, patrolling, Iraqis doing the 
sweeping. And when they need the kinds of skills and capacity 
they don't have, like air power, we will do it like we have 
been doing the past couple of days in Baghdad, provide it to 
them. But the U.S. will stay under U.S. command, and the Iraqis 
will be under the Iraqi command, and General Casey and his 
counterpart, Iraqi partner, will work together on the command 
and control of that.
    Mr. Abercrombie. How is that any different than what has 
been done since November of 2005?
    General Pace. The main difference is the political 
atmosphere in which they are allowed to operate. There is no 
number, there is no number of additional U.S. troops that will 
make a difference, absent--long-term difference--absent the 
political will of Iraqi leadership and the religious 
leadership.
    Mr. Abercrombie. Thank you, General. Secretary Gates, I 
suggest it won't take you 18 months to figure that out. It will 
take you 6 months to figure that out. I don't think there is 
going to be any change, I am sorry to say, that is likely to 
take place in the next 6 days, let alone the next 6 months or 
18 months.
    Finally, Secretary Gates, if there is time for it, in all 
of the discussions so far--let's suppose General Pace's 
description of this plan works, for conversation's sake. What 
is the exit strategy?
    Secretary Gates. The exit strategy is that as the level of 
violence goes down and as the Iraqis gain control of--restore 
control in Baghdad, that the presence of the United States 
would diminish.
    Mr. Abercrombie. If that doesn't occur, is there an exit 
strategy?
    The Chairman. Answer the question, then we go to Ms. Davis.
    Secretary Gates. I think at the outset of the strategy, it 
is a mistake to talk about an exit strategy.
    The Chairman. Thank you. Ms. Davis from Virginia.
    Thank the gentleman from Hawaii.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman. Mr. 
Secretary, welcome and look forward to working with you over 
the next couple of years. General Pace, it is always great to 
see you.
    I want to focus on a specific impact of the surge of forces 
into Baghdad and now Anbar province, and that is the risk to 
our readiness associated not only with increasing troops but 
also their equipment. I want to know if you can give me a risk 
assessment of the proposed surge on the strategic posture of 
our forces. In other words, would this increase of troop levels 
in 2007 prevent or degrade the military's ability to respond in 
other parts of the world if we are called upon? And I think 
most of us on this committee understand that resetting the 
force is going to take years and a large amount of funding, but 
I want to make sure that we are not backing ourselves into some 
sort of corner, given the situation that we have got in other 
parts of the world besides just in Iraq.
    From the information that has been provided today, I 
understand brigades are being extended. Some units are 
deploying early and others will be mobilized in the coming 
months. I am very glad to hear that DOD is doing what we on 
this committee has asked, and that is to increase the end 
strength of the Army and Marine Corps. I just wish it would 
have been done a lot sooner. I believe that we are asking our 
military to do much more now than we have ever asked of them, 
and for that reason I think that the growing force is very 
necessary.
    My second question is, when would be the earliest impact of 
the proposed phased increase in the end strength and would it 
be funded in the fiscal year 2008 budget?
    General Pace. Yes, ma'am. If I may give you two levels of 
answer to your risk question. One has to do with maintaining 
the size of the force we have now in Iraq and plussing up, and 
the other has to do with other contingencies around the world. 
We have today 82 brigades in our active force and in our 
reserve and guard, which at the conclusion of this will have 20 
temporarily in Baghdad--in Iraq, excuse me.
    The risk in Iraq to the active force is that right now we 
have our troops one year over, one year back, one year over. So 
as you go to increase the size of the current force in Iraq and 
you use the active force to do the increase because they are 
the ones who are most ready to go, then you are taking people 
who are in this train to be deployed over the next year and 
moving them forward. So you shorten the time they have at home, 
and you are beginning to use up their time that they would have 
spent in Iraq next year, using up this year.
    So when you do this, you already know that if we need to 
have this size commitment next year, 15 brigades, 20 brigades, 
whatever it is going to be, if you are going to need that, then 
you know you are going to need to backfill this time next year 
with guard and reserve forces to do that. It is doable but you 
have to understand what you are spending today and what you may 
have to spend tomorrow to do it. That is very different from an 
attack somewhere else in the world where we still have the 
enormous might of our Navy and our Air Force and we can 
mobilize all of our reserves at one time and go do what the 
Nation needs us to do.
    We will be slower to cross the line of departure than we 
would like to be to respond to that second event. We will 
probably have to be more blunt in the use of our military 
power, meaning less precise, because some of the things you use 
to guide precision weapons will be used in Iraq. But there is 
zero doubt that any intentional competitor on the horizon would 
meet defeat at the hands of the U.S. military, given 20 
brigades plussed up into Iraq and some other threat someplace 
else. That does not mean it will be easy, it does not mean it 
will be pretty, but it can get done.
    The Chairman. I thank the gentlelady.
    The gentleman from Massachusetts, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Secretary, and thank you Mr. 
Secretary, and General, for appearing before the committee.
    I don't see anything that makes me, or I don't hear 
anything that makes me feel any confidence that an increase in 
troops is the right thing to do. I want to point out I heard 
the secretary say a few months, we are going to try this for a 
few months. The Vice President said this entire war was going 
to last a few months.
    Every general that I have met with in Iraq or in Washington 
has been saying that more troops were not necessary. For the 
longest period of time--I think General Abizaid was before the 
Senate Armed Services Committee two months ago saying that more 
troops wouldn't help the situation. So I really don't have much 
confidence in this but I am interested in a couple of things.
    Mr. Secretary, you have said if the Iraqis don't follow 
through, and God knows they haven't followed through on very 
much here over a period of time, but if they don't follow 
through on this plan, you are going to go back at them hard. 
What does that mean?
    Secretary Gates. The first approach would clearly be in 
Baghdad in terms of reminding them of their commitments and 
causing them--telling them they had to meet the commitments 
that they had made to us. The first response is going to be a 
diplomatic and political one.
    Mr. Meehan. But that has been going on for a long period of 
time now. What happens if they are unable to meet their 
commitments? I don't understand at what point do we say that we 
are going to back off here. If you can't live up to your 
commitment, if the Iraqis can't live up to their commitments, 
at what point do we say enough is enough, we are going to start 
not bringing more troops in, we are going to reduce the upfront 
presence of American troops.
    The statistics that Mr. Taylor gave have been consistent 
over a period of years. We are an occupying force there. I 
heard the General talk about this force. It is important to 
point out the force is an occupying force; it is not a training 
force. And, Mr. Secretary, you were part of the bipartisan Iraq 
Study Group that had gotten together, and I realize you weren't 
there at the end of the recommendations, but you certainly were 
part of the process for the majority of the time.
    Recommendation number 43, which I thought everyone agreed, 
military priorities in Iraq must change, with the highest 
priority given to the training, equipping, advising and support 
mission to counterterrorism operations. I don't see how this is 
consistent with that priority of training our troops. I think 
the primary mission of the American forces in Iraq, we have all 
agreed, has been to stand up a viable security force, Iraqi 
security force, and I don't see how this is going to help us 
with that. Seems to me the President is clinging to this hope 
that the war can be won militarily, and I don't know anyone 
that thinks a war can be won militarily. It can be won 
politically. But we can't get the Iraqis to step up to the 
plate on very much, and I hear you saying we are going to go 
back hard at them. It hasn't worked for a period of time. At 
some point there comes a judgment day when we are going to have 
to make a decision. And I am just wondering what it is, when it 
is, after four years.
    Would you agree that this isn't--would you agree with the 
military priorities as being the highest regard to training as 
the Iraq Study Group had said, and how is this consistent?
    Secretary Gates. I think that that has been the highest 
priority. The problem that we have faced is that due to the 
actions of al Qaeda and others in stoking the sectarian 
violence, the violence in Baghdad has reached a point where it 
was difficult for the political process in Baghdad to go any 
further.
    Mr. Meehan. But that is also the problem with 
reconstruction and economic development. We have spent billions 
of dollars in Iraq with little or nothing to show for it, 
because the contractors have been hired to be put in. It is too 
violent. They can't have contractors go in because they get 
killed. Why is it going to be any different now that we are 
going to take a billion dollars more? I just don't see any 
light at the end of the tunnel here.
    Secretary Gates. Mr. Skelton and I talked about this last 
evening. The question is, are you optimistic or pessimistic? It 
is pretty--my own view is that the one source of optimism is 
that for the first time in this process you have the Iraqis 
insisting on taking the lead, insisting on being out in front, 
and insisting on beginning this attempt to get control of their 
own capital, with us only in a support role. As I indicated at 
the beginning, we will know fairly quickly, I think, whether 
they are prepared to follow through on these commitments.
    I think one of the things we sometimes lose sight of is 
that there was an election, for the first time in Iraqi 
history, just a year ago, a little over a year ago. This 
government wasn't stood up until last spring. These are people 
who have never run anything in their lives. They have been in 
opposition. Frankly, the challenges that have faced them in 
trying to deal with the problems they have I think have been 
pretty extraordinary, and the fact that it has taken them some 
period of time to get themselves in the position where they are 
ready to take the lead and charge of this thing is not 
surprising.
    The Chairman. I thank the gentleman. We are supposed to 
have three votes and I was in hopes we could continue the 
hearing while we switched off to do the votes, but with three 
it is going to be impossible. We will try to go as long as we 
can and make the recesses as short as we can. But with your 
indulgence and, General, with your indulgence, please stay when 
we do make the necessary trip over for those three votes. We 
appreciate it.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, General, for being here and for your input today. I 
want to try to follow up on what my friend Congressman Hayes 
was asking a little bit ago about some of the math that is 
involved. We see people come in and testify; they are writing 
articles. One person says we need more troops; another person 
says we need less troops. We are oftentimes just kind of caught 
in-between saying, ``What do you base that on?''
    What I want to try to do in the few minutes I have got is 
to get my hands on what you are basing the 20 plus-up upon. Let 
me go back, General, to your numbers. As I understand them, and 
perhaps I did the math wrong, but you indicated on total Iraqi 
security personnel today in Baghdad we have about 42,000; that 
after the full implementation of the plan we would have about 
50,000 total. For our troops we have about 24,000 today. We 
would be adding another 7,000, which brings us up to 31,000. 
And then another 10,500 we can put wherever we could. Let's 
assume we put them all there. That would give 41,500 U.S. 
troops. That is a total of 91,500 troops.
    And as I look at--the only way that I can get my hands 
around numbers that makes sense is to look at previous 
conflicts and where we were. If you look across the United 
States for just police personnel that we have, we have about 
2.3 sworn police officers per thousand. If we look at the 
situation that the British had in Northern Ireland and the 
Malaysian counterinsurgency in the mid-20th century, if you 
look at Bosnia and Kosovo, we had stability forces, whenever 
you were warranting outside intervention, that were closer to 
about 20 per 1,000, which would--if we took those numbers we 
would be at about 140,000 troops we would need in Baghdad to do 
the job.
    Can you explain to me the difference between the situation 
we have on the ground today in Baghdad and Northern Ireland, 
Bosnia, Kosovo, even the Malaysian situation--because it looks 
to me like that situation is as bad or worse than those--and 
what we base this 20,000 figure on, some citation I can go to 
that you can tell me that is the formula, that is what we came 
up with to get this number?
    General Pace. I will try, sir. Understand that every place 
is different.
    Mr. Forbes. But the only thing I would point out is at 
least we have a pattern and we have to some way base some of 
what we do on facts and objectivity. And we looked at those 
four situations; all seem to be about the same numerical basis. 
What makes us think we can do it with less numbers, or is my 
math just off?
    General Pace. Sir, I wouldn't say your math is off at all. 
I would also point out El Salvador was a very successful 
transition to democracy with 55 U.S. advisors, so the math 
isn't always good for the situation. But specifically for 
Baghdad, what General Casey and his commanders and Iraqis did 
was take a look, district by district, what do they need to do, 
how many patrols do they need to have, how many patrolmen out 
on the street did they need to have, how much door-to-door 
knocking would they need to do, how much reinforcing of forces 
would they need, quick reaction forces and the like, and take 
each of the tasks that they would have to do every day, 24 
hours a day, 7 days a week, and just do the pure math. It tells 
you how many folks you need.
    When they did that, they came up with a need for three more 
Iraqi brigades and two more U.S. brigades. Al Anbar, the math 
added one more U.S. brigade, for a total of six. What we then 
did in response to that request from the commanders in the 
field was look at it, understand how about if in addition to 
that we provide you additional forces available to you so that 
when the enemy takes whatever action he takes, when 
opportunities present themselves for reinforcement of success, 
you have forces available to you. So the 20,000 is a 
combination of what the commanders on the ground specifically 
asked for based on their math, plus an additional factor for 
the unknown.
    The Chairman. I thank the gentleman. The gentleman from 
Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Secretary. Mr. Secretary, welcome 
to our committee and, General, good to see you before our 
committee.
    Mr. Secretary, you are from Texas so I know you are 
familiar with the term ``being snookered.'' I hope we are not 
being snookered again by Prime Minister Maliki here, and I say 
that because he has had a track record of saying one thing to 
us and saying other things for consumption to his political 
base there in Iraq. What concerns me about what I believe the 
Administration and you think is a strength, and that is that 
this is an Iraqi plan and that they are insisting on taking the 
lead, is that we may be on the way to being snookered one more 
time. That is why I am as frustrated as my colleagues here when 
we don't have some substantial consequences if they fail to 
perform.
    Nobody here or anywhere else wants to see this fail, either 
this plan or our presence in Iraq, because personally I don't 
want Iraq to become the next Afghanistan under the former 
Taliban government.
    But one question that I have, and you said, Mr. Secretary, 
that very early on we will be able to tell or to evaluate 
whether or not they are holding up their end of the bargain. 
What are the consequences, or have we come up with consequences 
that have been articulated to the Maliki government? And by 
that I mean okay, if you fail to do this, if these brigades or 
battalions don't show up on the part of the Iraqis, then we 
will stop the flow of U.S. troops, or then we will start 
redeployment, or exactly what are the real consequences, 
something besides we are going to go back at them hard, we are 
going to hold them accountable? What are some of the 
consequences tangibly that you can tell them?
    Secretary Gates. Mr. Reyes, I think it is pretty--I think 
it is quite clear to the Iraqis what our expectations are and 
the President's growing impatience and his statements to them 
that our patience has its limits. The reality in fact, in 
answer to several of the other members' questions, and that is, 
first of all, we have to determine if there are instances where 
the commitments are not being fulfilled, whether it is a local 
official who is not doing it, whether there is a pattern to 
these failures, or whether it becomes clear that it is the 
government itself that is at fault. And if it becomes clear 
that the government is at fault and that the government of Iraq 
is not going to fulfill its commitments, then as I indicated 
earlier, the United States Government would have to revisit 
this strategy. And I think that the Iraqis know that full well.
    Mr. Reyes. What does that mean, what exactly does that 
mean? Does it mean we stop the flow of troops, we take a step 
back and initiate redeployment? Exactly what does that mean?
    Secretary Gates. I think that is a decision we would have 
to make at the time. That would be our decision.
    Mr. Reyes. But you have given it some thought. It is okay 
if you can't publicly say what the consequences are. That is 
well and good, because then maybe we could have a closed 
hearing and we could get some assurance that in fact there have 
been some consequences articulated privately, or that we have 
thought about these are the kinds of things we are going to do 
if they don't perform.
    Secretary Gates. Sir, our focus at this point has been 
trying to make the strategy that has been agreed with the 
Iraqis work. I think we are going to expend our energies on 
that and deal with failure or deal with their deficiencies if 
those deficiencies come to pass. All the signs that we are 
seeing so far is that in the commitments they have made in 
terms of this strategy so far, they have fulfilled everything 
that they said they would do.
    Mr. Reyes. But, Mr. Secretary, again we have to look at the 
potential for success of this commitment based upon the 
historical record that the Maliki government has had, and 
frankly it hasn't been a very stellar track record. That is why 
we can't afford to get snookered again, because we are putting 
another 21-22,000 of our troops in harm's way, and there have 
to be real consequences.
    I see that my time is up. Thank you, Mr. Chairman.
    The Chairman. I am going to ask one more member to ask 
questions and then we will break. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, and thank you, General, for being here today and 
thank you for your service to our country.
    I was very pleased that Congressman Hayes and Congressman 
Forbes were able to establish that in Baghdad that there would 
be substantially more Iraqi forces than American forces. This 
is indeed a joint operation.
    I, Mr. Secretary, heard you say that the Iraqi forces will 
be taking the lead. I am a parent of four sons in the military. 
I will be meeting with other parents. Could you and the General 
please explain to family members what it means that the Iraqi 
forces are in the lead, and how would this work practically as 
our forces are facing the enemy in the streets of Baghdad?
    General Pace. Sir, ``in the lead'' means that they are the 
ones who are doing the day-to-day patrolling. They are the ones 
who are doing the knocking on the doors, do the census work and 
tell the inhabitants of that home that the Iraqi armed forces 
are there for their protection. They are the ones who will be 
the responders to any kind of phone calls, tips and the like. 
But we will be the ones that will give them the additional 
capacity that they don't have.
    And I will repeat what I said today about what is happening 
in the hydra street the last couple of days. The Iraqis were 
sweeping through that area. The Iraqi army was--they got into a 
firefight. They needed additional fire support. They got that 
from our helicopters and our fixed wing.
    That does not mean that U.S. forces will not be patrolling. 
It does not mean that U.S. forces will not be doing the things 
we need to do for our own self-protection and for the stability 
of the areas around which we are living; but it does mean that 
most of that work will be done by Iraqis with our backing.
    Mr. Wilson. And this is substantially different from what 
is being done now?
    General Pace. What is substantially different, sir, is the 
armed forces of both countries will be able to do it throughout 
Baghdad. Up until now, each time we have tried this, when we 
were operating in Sunni neighborhoods, that was okay; when we 
got into mixed neighborhoods, that got a little dicey; and when 
we tried to go into Shi'a neighborhoods, often the Iraqis were 
told to stop or recapture somebody and we were asked to give 
them back. What is substantially different is the intent to 
apply the rule of law across Baghdad without regard to which 
neighborhood the criminal lives.
    Mr. Wilson. And then I was happy to hear the President 
indicate, and you have just indicated too, in terms of rules of 
engagement, that there will be changes in terms of catch and 
release. I have had troops express concern to me about safe 
houses. They secure terrorists and they leave the home, and the 
next week it is restored again as a safe house for terrorism. 
And the experience in many countries is those homes are 
demolished. What would be--how can I answer that?
    General Pace. Part of the problem in the past, sir, is we 
have not had, because in part the Iraqi units did not show up, 
we did not have enough units after we did the clearing to be 
able to do the hold. So there were not enough Iraqi troops to 
do the hold, and we left. Then the people came back to that 
house.
    With this plan there are sufficient troops to do be able to 
do the clear and the hold and, most importantly, to do the 
build, primarily with Iraqi money, so that the citizens start 
seeing progress and decide because of that progress to become 
part of the community as opposed to trying to kill each other.
    Mr. Wilson. Again, thank you very much. I visited Iraq six 
times. Mr. Chairman, I go to inspire the troops; they inspire 
me. Thank you for all of their service. God bless you.
    The Chairman. I thank the gentleman. There are three votes 
on the floor. We will be in recess, and again I appreciate the 
indulgence of our witnesses. We will be back as soon as 
possible.
    [Recess.]
    The Chairman. As soon as the witnesses get here, we will 
call on Dr. Snyder.
    The witnesses are back at the witness table. Before I call 
on Dr. Snyder, please note the charts that are being placed on 
the wall. There are copies in front of each member. I think you 
will find them of interest. They are as up to date as possible. 
All of the information was not available, in some instances, 
past October, but the staff did the best that they could.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here.
    General Pace, it is good to see you.
    I also want to acknowledge the presence of Mr. Rangel here 
today, our former Staff Director, and for some of the members 
here, Mr. Rangel got a start on this committee as a staff 
member on the Subcommittee on Oversight and Investigation, so I 
do not want you to think that this is somehow--we have not had 
it for ten years. It is a good subcommittee, and it is 
something that Mr. Rangel believes in. I look forward to 
working with you on that subcommittee on issues.
    Mr. Secretary, you know the old line about, ``Good managers 
do not make their money when things go well; they make their 
money when things are struggling''; and you are going to have a 
lot of opportunity to earn your money in this job, and the 
troops are counting on you. The American people are counting on 
you. One of the chores that you have is coming before these 
committees, and frankly, we have had difficulties, in my 
opinion, with the kind of forthrightness that I think the 
American people and this Congress deserve, and I know that, at 
times, sometimes as members of Congress we say dumb things, 
stupid things, wrong things, partisan things, angry things, but 
when all of this comes out in the wash, our process is better 
because of the kinds of questions and the variety of questions 
that come out of these hearings and the interactions that we 
have with you, so I encourage you in, I guess, the spirit of a 
college president, to have that kind of relationship with us of 
forthrightness because--I will give you an example.
    It was months before we could get anyone to acknowledge at 
this table a couple of years ago that there was actually an 
insurgency going on. Finally, the words ``guerilla war'' were 
used, but the whole world knew there was a problem. That is the 
kind of problem that we have had, so we look forward to this 
relationship with you.
    In your written statement on page five, Mr. Secretary, you 
say, ``Above all, I want you to know that the timetable for the 
introduction of additional U.S. forces will provide ample 
opportunity early on--and before many of the additional U.S. 
troops arrive in Iraq--to evaluate the progress of this 
endeavor and whether the Iraqis are fulfilling their 
commitments to us.'' And then a while ago, you said you thought 
that, in a couple of months, we would be able to evaluate how 
things were going.
    Are you saying here today that we may not get that 21,500 
additional troops--in your words here, you will have ample 
opportunity before many of the troops arrive in Iraq--that you 
may conclude that we should not put additional troops in?
    Secretary Gates. First of all, let me say that, while the 
President has committed these additional brigades for Baghdad, 
the initial deployments into Baghdad requested by the 
commanders are two brigades in Baghdad and one brigade in 
Anbar, and it will be, I think--and I will defer to General 
Pace on this--but I think it will be the decision of the 
commanders on the ground whether to move the additional 
brigades on into Iraq, whether they are needed and what their 
role and their mission would be, but we have committed--the 
President has committed them. Part of that evaluation, 
presumably, will be whether the Iraqis are keeping their 
commitments, but it will also, frankly, be, I think, the 
success of the operation.
    Dr. Snyder. But I assume when you talk about evaluating the 
progress of this endeavor, you are not just talking about the 
military progress, but you are talking about the whole package, 
which I assume would be made at--a decision would be made at 
the Presidential level, I would assume.
    Secretary Gates. I think that, as to the progress that we 
will see on the military side and whether the Iraqis have kept 
their commitments in terms of being able to go after all 
lawbreakers, in terms of the brigades that they have promised 
showing up, in terms of going into all neighborhoods, we will 
see fairly early on in that couple-of-months' period whether 
they are keeping those. I think that the ``hold'' and ``build'' 
parts, so the clear part--we will know pretty quickly, within a 
couple of months, whether the Iraqis are fulfilling their 
commitments.
    The ``hold'' and ``build'' parts are naturally going to 
take a little longer just in terms of creating jobs, of getting 
economic assistance in there and so on, so I am not saying that 
we will have a good picture within a couple of months on the 
``build'' side of it, but I think that we will begin--we will 
have a pretty clear--a pretty good idea on the ``clear'' part 
of the strategy. I think we will have some important early 
indications on the ``hold'' part of the strategy. I think that 
is probably a little early on the ``build'' side.
    Dr. Snyder. General Pace, you had mentioned earlier on that 
General Abizaid was part of the group that supported and 
requested additional troops. How does that jive with his 
testimony of November 15th before the Senate in which he 
stated, ``I do not believe that more American troops right now 
is the solution to the problem''? Has General Abizaid changed 
his mind? Has he been convinced to change his mind? What kind 
of interaction has there been with General Abizaid, who, as you 
know, is very well respected by this committee?
    General Pace. Sir, I have had many conversations with 
General Abizaid on the phone, and the secretary and I were with 
him and General Casey in Baghdad when they both asked us for 
these additional troops.
    As with all of us in uniform who had been saying, ``Do not 
just add troops to do more of what the troops have been 
doing,'' if there is a difference, if there is a definable 
mission, if there is a new political environment, if there is 
going to be economic activity, then it makes sense. So, with 
the commitment of the political side, with the commitment of 
the economic side, it does make sense to provide additional 
troops for this military piece of that three-pronged attack.
    Dr. Snyder. Thank you very much.
    The Chairman. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman, and I thank both of you 
for being here and your service.
    We have had a lot of talk this afternoon about the 
importance of Iraqi performance and how you measure it, and you 
each have made the point in separate contexts the Sunni Sheiks' 
cooperating with us in Al Anbar. That is a welcome development 
of a Shi'a government in Baghdad that seems to be stepping up a 
little bit more than we have seen.
    How many instances do you see of the Sunnis and the Shi'a 
cooperating with one another, because that is really the gist 
of our problem here. We were said to have had a much better 
year in many ways than occurred until the sectarian violence, 
you know. So are you seeing signs that that is subsiding within 
the government?
    Secretary Gates. I think that--I will ask General Pace to 
talk about the military side because there is, perhaps, a 
greater mix there.
    What we have seen is the minister of defense, if I remember 
correctly, is a Sunni. Certainly, one of the vice presidents is 
a Sunni, Mr. Hashimi, and as I said earlier, the President and 
others have not just talked to Prime Minister Maliki about the 
commitment of the government, but to Hashimi and Hakim and the 
others, so they certainly all seem to be on board with the 
commitments that we have been given. Below that level, I think 
the picture is still very mixed, but general.
    General Pace. Sir, in the military and the Iraqi army, the 
Iraqi government has gone to great lengths to recruit and build 
mixed units, and the Iraqi army has proven itself to be loyal 
to the central government and, for the most part, doing the 
central government's bidding.
    In the police, it is a little less well-defined. It is 
different in the police. There are still some units that are 
more sectarian than non-political. As those units are 
identified, they are taken off the line, and they are 
disassembled. Those who are loyal are kept. Those who are not 
are replaced. That unit then goes through a retraining and is 
put back into the mix.
    So the military, itself, the army, is leading the way, I 
would say, with regard to cooperation in the ranks amongst 
different Shi'a, Sunni, and Kurd, and the police are behind 
them.
    Mr. Cole. So, as far as you can tell, this operation on the 
Iraqi side will have largely mixed units carrying out their end 
of the security operations?
    General Pace. Sir, I am not 100-percent sure of that.
    I do know that the commanders have selected their units 
based on their capacities, on their mix, but I will have to 
find out for sure, of all of the units that are there, how many 
are one kind and how many are another. I just do not know.
    Mr. Cole. Okay. If I could, I would like to go back to pick 
up Mr. Forbes' and Mr. Hayes' questions about the math.
    In just looking at the numbers, at the end of the day, if I 
understand the calculations, there are around 50-some-odd 
thousand Iraqi security personnel of all sorts, not just 
military-engaged, and just over 40,000 American troops 
potentially engaged assuming your ten-five were all deployed in 
Baghdad. That is a five-to-four ratio and, frankly, a much 
bigger kick-up on our side in terms of personnel involved in 
this operation than on theirs.
    Why is it two-to-one or three-to-one? Do they not have the 
forces or why aren't those forces being committed in addition 
to simply 8,000 additional people on top of 42?
    General Pace. Yes, sir.
    When the troop-to-task analysis was done, the determination 
of the commanders on the ground was that they needed about 
8,000 more Iraqis and about 7,000 more U.S. If the commanders 
get--when the commanders get what they have asked for, there 
will be 50,000 Iraqis and about 31,000 U.S. What we have done 
on the U.S. pipeline, because it takes us a month to get the 
gear shipped over, et cetera, is to put the additional three 
brigades into the pipeline so they can arrive and be available 
to the commanders on the ground.
    At the same time, we are doing that, not yet asked for by 
the commanders, but it is available to them, the Iraqis are 
looking at the other units around the country to see what they 
might add as well. So we put our insurance policy into our plan 
because it takes us a while to get there.
    Mr. Cole. Okay. Let me just close with a quick point.
    I appreciate very much what you have to say and 
particularly your emphasis on the importance of the Iraqi 
participation there and, frankly, not just military but 
political. If we do not see things like a reasonable 
distribution of the oil money, if we do not see provincial 
elections, if we do not see a revisiting of the extent of the 
de-Baathification program, then I do not think that your 
efforts--that are as good as I know they will be--and those of 
our people will succeed.
    I would just ask you--and I do not even remember if this 
committee feels this way. I agree, Mr. Gates, Secretary Gates, 
with your assessment of what is at stake here. I think you hit 
it spot on, but I also think this is the last effort. So I 
would just ask you to be frank with us if the other side is not 
keeping their commitments and do that quickly.
    Thank you, Mr. Chairman.
    The Chairman. Adam Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, Secretary Gates, General Pace, for being here. 
First of all, I concur with Mr. Snyder. You do have a very 
difficult job, and you took it at a very difficult time, and we 
thank you for stepping up and doing that.
    I share my colleagues' skepticism about this plan for a 
number of reasons. I mean the two biggest ones are that, when 
you do a classic counterinsurgency strategy of ``clear, hold 
and build,'' you have to have the hearts and minds of the 
populace. I mean that is sort of at the top of it, and as Mr. 
Taylor pointed out, we have lost that, and I have no confidence 
whatsoever that we will be able to get it back, and I think 
that undermines a lot of what we do, and second, you know, 
because of the points Mr. Forbes raised about the numbers, we 
do not have the numbers or the long-term sustainability to 
really implement that strategy at this point. I think you have 
addressed those concerns. I will not say they have been 
alleviated.
    But my bigger concern is, even if we succeed in what we are 
doing here, it is sort of ``Then what?'' And what exactly does 
success look like? It is virtually impossible for me to 
imagine, and I would imagine you would agree, that in six 
months, eight months time, there is not still violence in 
Baghdad. It is impossible to imagine that Mr. Sadr is simply 
going to blow up and disappear or that his forces are. We may 
be able to sort of simmer it down for a little while, but I do 
not think there is any real prospect of a long-term reduction 
in the causes of the violence in Baghdad.
    So we are doing all of this to sort of wind up in a similar 
place because the causes of the violence, by and large, will 
still be there. One of them will be exacerbated, and that is 
our presence. As has been pointed out and I do not think 
emphasized enough, you know, a lot of the insurgents, the 
terrorists, are motivated by driving us out, and our 
unwillingness to even say that we are leaving at some point 
adds fuel to that, and certainly adding more troops and 
launching a military campaign in Baghdad is not going to reduce 
that. So that will still be there.
    We will still have the problem with Syria and Iran, which I 
want to ask about in just a minute, and it is also reasonable 
to assume that we will still have, you know, conflicts between 
Shi'a and Sunni and even within the two groups. So I do not see 
us really making a lot of progress, and there is an enormous 
cost to us in terms of American lives at risk and the further 
strain on a military that is very strained as you both know. So 
I am just not sure that, at the end of this, we will wind up in 
a much better place, and that is what I am very concerned 
about, and I also want to make a point.
    You know, it was referenced about, you know, we can not 
afford to fail. One of the things that always concerns me in 
launching a plan is when we start spinning out nightmare 
scenarios if we do not do this. Whenever that is sort of at the 
top of your list for arguments as to why you are doing 
something, that is a warning sign to me to basically say, well, 
we cannot really get behind our plan, but we can tell you, if 
we do not, all of these horrible things are going to happen, 
and I am not saying that they are not possible, but they are 
not as guaranteed as the President said last night, as you, 
yourself, have said.
    I mean, one of the scenarios that I have heard is that, 
well, Iran will effectively take over Iraq, and at the same 
time, al Qaeda will operate as a safe haven in Iraq. You know, 
to have a Shi'a extremist group in a country with a Sunni 
extremist group having a safe haven is pretty hard to imagine, 
and yet, that is what we are arguing will happen if we do not 
do this. So I would urge us to sort of tone that rhetoric down 
just a little bit to understand the true consequences of going 
forward or not going forward.
    The political solutions are not easy either--no doubt about 
that--but they are a lot less costly than continuing to rely on 
the military at a time when it does not seem like they can 
bring security for many of the reasons that have been raised.
    Two quick questions. Syria and Iran, they are a major 
problem--porous borders either allowing them to pass back and 
through or actively sending them. This plan does not address 
that at all, and I am curious how you think we stop that and 
your feeling about how critical it is, and last, where do you 
see Sadr and his forces at the end of this?
    Secretary Gates. First, with respect to Iran, as you will 
have noticed over the last couple of weeks, we are beginning to 
move aggressively to try and identify and root out the networks 
that are involved in helping to bring Iranian-supplied 
improvised explosive devices (IEDs) into Iraq and making it 
clear that those who are involved in activities that cost the 
lives of American soldiers are going to be subject to actions 
on the part of the United States inside Iraq. Our view is that 
we need to deal--that we can and will deal with this problem 
inside Iraq.
    With respect to the Syrians, clearly, a lot is going on on 
the border of Syria in terms of trying to control what the 
Syrians are sending in. Quite frankly, the Syrians and the 
Iranians are playing a very destabilizing role in Iraq.
    The Chairman. You have to wrap the answer up, please. Did 
you finish answering?
    Secretary Gates. Yes, sir.
    The Chairman. All right. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary and General, thank you for being here.
    The chairman in his opening questions had stated that, if 
Iraq fails to deliver, what do we do to hold them accountable, 
and that has been a consistent theme throughout each of the 
questions that you have been asked and is in the concerns that 
members have expressed. It is also an issue that is expressed 
in the Iraq Study Group report as a limit on our success as we 
go forward.
    With this recommendation of increasing troops, if you look 
at the assessment from the Iraq Study Group, they say, 
``Sustained increases in U.S. troop levels will not solve the 
fundamental cause of violence in Iraq, which is the absence of 
national reconciliation. A senior American general told us that 
adding U.S. troops might temporarily help limit violence in a 
highly localized area. However, past experience indicates that 
the violence would simply rekindle as soon as U.S. forces are 
moved to another area.''
    Now, it seems to me, as you have been answering these 
questions, that you have been contrasting this recommendation 
from what you are actually proposing; although, they sound as 
if they are in conflict.
    Could you please respond to what the Iraq Study Group said 
about adding more troops and the plan for this proposed surge? 
And then also I would be interested in the additional 
recommendations of the Iraq Study Group. I know that a 
significant amount of intellectual capital went into this, and 
I would certainly hope that the remaining recommendations are 
continuing to be reviewed by the Administration.
    Mr. Secretary.
    Secretary Gates. First of all, a number of the Iraq Study 
Group's recommendations have been incorporated into the 
President's strategy, and we can talk a little bit about that 
if you all want to.
    I would say that, in the recommendation that you mentioned, 
I do not know anybody in the Administration who disagrees with 
the notion that military force alone can not win this thing and 
that, no matter how many American forces you put into Iraq, if 
there is not a political reconciliation and a willingness to 
work together on the part of the Iraqis, there will not be a 
solution to the problem that we face there, and the premise of 
the strategy is fundamentally that the Iraqis have come to us 
and have said that the different parts of their government have 
decided to come together, work together to do these acts of 
reconciliation that are apart from the military campaign--
provincial elections, oil revenues and so on. So I think that 
there is very little disagreement with the premise of the study 
group that military action alone can not solve this thing.
    Mr. Turner. General, do you have a comment?
    General Pace. Sir, I agree completely with his statement 
that adding any number of U.S. forces will simply have a 
temporary effect absent political reconciliation and economic 
progress, and that is why we have been so concerned and 
attentive to the other two parts of this three-legged stool, 
because military action, by itself, will not have a long-term 
effect, and it is the Maliki government's commitment to the 
other two legs of that stool and our own government's 
commitment to the other two legs of that stool that give me 
confidence in our capacity to make this military plan, as part 
of the overall plan, succeed.
    Secretary Gates. Let me just add that, although I was a 
member of the study group until I ended up being nominated for 
this position, I think it is important to remember that they 
were writing their report at the time that the last effort to 
clear, hold and build was going on in Baghdad, and it was 
failing. The clear--the ``hold'' and ``build'' part of it was 
not there, and so I think that the conclusion that they drew 
was based on that failure, and frankly, I think the President 
has drawn the same conclusion.
    General Pace. And as to the other parts that you asked 
about with regard to other recommendations, clearly the 
recommendation about increasing the size of the embedded 
trained teams is a great recommendation and is part of this 
process. We are going to double and triple the size of the 
embedded teams. Equally important from the State Department's 
standpoint, they are going to double the number of provincial 
reconstruction teams, and that is very important. So there has 
been a lot of the Baker-Hamilton report that has been cross-
walked with these recommendations, and there are very few 
things that have not been accommodated one way or another.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman. The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, 
Gentlemen, for being here with us today.
    As one of my colleagues mentioned, the Iraq Study Group 
really said, you know, troops are not the answer to this. On 
November 15th, General Abizaid said, ``I believe that more 
American forces prevent the Iraqis from doing more and taking 
more responsibility for their own future.'' I have met with 
every divisional commander--General Casey; the Corps commander, 
General Dempsey. We all talked together, and I said, ``In your 
professional opinion, if we were to bring in more American 
troops now, will it add considerably to our ability to achieve 
success in Iraq?'' And they all said, ``No.''
    On November 30th, Prime Minister Maliki and Bush met in 
Jordan, and from all accounts, it came out in the newspaper at 
least he did not ask for any more troops, American troops. Last 
summer, Operation Together Forward, we surged the size of the 
U.S. forces in Baghdad from 7,500 to 15,000. We doubled the 
force, and yet, the operation failed to stabilize the city and 
to reduce the level of sectarian violence, and General Odierno 
said that the operation failed for three reasons: we could not 
hold the areas we cleared; the Iraqi army failed to perform; 
and no effort by the Iraqi government to rein in the Shi'a 
militias, especially the Mahdi army, which is the al Sadr 
folks.
    So, now you all are telling me there is a political change 
going on with the government in Iraq, and they are going to do 
more. I mean it is hard for me to imagine that the prime 
minister sits around and says, you know, ``I want to be the guy 
that is holding onto the power in a failed country.'' So, I 
think he has been trying to do as much as he can.
    So I am looking at that, and I am thinking he has got five 
ministers that are al Sadr people. Thirty percent--a third of 
his parliament are al Sadr positions. They are his power base 
in a lot of ways.
    So my question is, ``What now?'' What change in tactics or 
conditions would lead you to believe that our operations can 
succeed when they have failed so recently? Someone once said 
that the definition of ``insanity'' is doing the same thing 
over and over again and expecting a different result each time. 
Why do you believe a surge will work this time? What specific 
assurances, measures, have you gotten from Maliki that would 
show us that he is going to gain control over these militias 
who are going out at night, decapitating people and scaring the 
rest of the population? What measures are going to--how is he 
going to change that if he has not done it yet given that 
Odierno said the Iraqi army failed to perform?
    Secretary Gates. You go ahead and then I will add.
    General Pace. Ma'am, I certainly understand your concerns, 
and the quotes that you have quoted, to my knowledge, are 
exactly accurate. In the middle of November, General Abizaid 
did say those words. He is also on record as having said that 
as part of a political and economic surge, that more troops 
would be useful.
    After he spoke in November, the prime minister and our 
President met. The prime minister proposed the new way ahead in 
Baghdad and throughout Al Anbar. Our commanders then, along 
with the Iraqi commanders, were given the responsibility to 
come up with the plan on the ground to make that work. They 
came up with a way to succeed and had very specific 
stipulations to include, A, the Prime Minister needed to be the 
one going out in the country and saying, ``This is what I am 
going to do.'' He has done that.
    The prime minister needed to pick an overall commander who 
would have the authority to operate over all of Baghdad and to 
have subordinate commanders who were going to work for him, and 
that has been done, that the Iraqi forces that failed to 
perform because they were told to stop by their political 
leaders, that those Iraqi forces would not be stopped, that 
they would be allowed to apply the rule of law across all of 
Baghdad in Sunni, mixed and Shi'a neighborhoods.
    So, given the change in leadership and political atmosphere 
and the commitment of $10 billion of Iraqi money for 
reconstruction, this military plan was developed as a part of 
that. There are no guarantees. We are going to pursue this on 
the assumptions that the promises that have been made will be 
delivered. So far, the promises made that should have been 
delivered by now have been.
    The Chairman. I thank the gentleman. John Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    The question has been asked and answered now many times: 
``what is different?'' So, I will not ask that question. It 
will probably be asked again beyond saying this: one of the 
things that, it seems to me, has changed in this strategy--and 
whether it is a strategy or a tactic I do not think matters; it 
is a new way of doing business--is the increased presence of 
U.S. forces embedded in and partnered with Iraqi army soldiers. 
We know that they fight better when we are with them. So that 
alone, I think, is going to make a change in how the Iraqi army 
performs, but let me move to another side of this, and that is 
the impact on our soldiers and Marines and families back here.
    When you extend tour lengths, you create hardship, plain 
and simple, for the soldiers, Marines, and their families. As 
it happens, the Minnesota National Guard has got a fairly 
sizable presence in Iraq, and their tour lengths are going to 
be extended, and I can feel the pain, even where I am sitting 
here, to those families.
    Mr. Secretary, you talked about doing some things to 
enhance benefits or pay or compensation for these extensions. 
Did I mishear that? Could you talk about that? What is it that 
you are doing to lessen those either early deployments or 
worse? The worst of all is when you are there, and you have 
been anticipating coming home. You have got your--the reception 
is already planned, and now you find you are going to be there 
for an additional one, two, three months. What do you think 
that addition is going to be, and what are you doing about it, 
either one or both of you?
    Secretary Gates. Mr. Kline, we are very sensitive to the 
impact, particularly in this transition time from going from 
individual volunteers and to a unit call-up. We believe that 
the change to the unit call-up plus limiting the mobilization 
time for those mobilized involuntarily to a year instead of 18 
months to 2 years will, in fact, make service more attractive 
because it will be more predictable. Once this transitions from 
the way things have been done for the last several years to the 
unit call-ups, we will be able to give people six, nine months 
or more advance notice before they are going to deploy, and 
with the increase in the end strength of both the Marines and 
the Army, we will try to get back as quickly as possible to the 
ratio of one year deployed/five years--or one year mobilized/
five years demobilized for the guard and reserves and one year 
deployed/two years at home base, or home post, for the Army.
    With respect to units like the brigade that is 
headquartered in Minnesota, we are very sensitive to the human 
impact of these decisions. We know that soldiers are worried 
about graduation dates for their children. We know that some of 
them had cruises planned; they had vacations planned and 
things, and we, as of today, have said that that brigade, 
although headquartered in Minnesota, actually draws on soldiers 
from, I think, about seven or eight different states, and we 
are sending people from the Army to every one of those states 
and to every one of those places to sit down with those folks, 
a family at a time, and figure out how we can help them--and we 
have some financial resources to help them--to try and mitigate 
the consequences of this call-up because we know that it leads 
to a lot of hardship, a lot of personal hardship and 
disappointment when these tours are extended like this, but we 
have to go through this transitional period to get to a more 
rational use of our guard and reserve forces.
    General, I do not know if you want to add.
    General Pace. Sir, it is not about money for sure but 
certainly, for the families, to alleviate some of the hardship. 
For those units that are being extended beyond the tour length 
that they were sent on, for each month or part thereof, they 
will get $1,000 more per month in their pay, so it is a way to 
recognize that there is additional hardship.
    On top of that, as we look at how to resource this for the 
next couple of months, we are paying very close attention to 
how to balance properly between those units that are home right 
now and bringing them up sooner and at least--giving them at 
least a year home before we take them back into theater, and 
those units that are in theater right now had the experience on 
the ground but would have to be extended to stay, so the 
Minnesota unit is the first one.
    Mr. Kline. My son's unit is the second, so I appreciate 
your consideration.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. McIntyre.
    Mr. McIntyre. Thank you, gentlemen, for your testimony 
today. I have two questions that I want to ask pretty directly, 
one regarding security and one regarding economic 
reconstruction.
    First, General Pace, you had said earlier today that the 
Iraqis are staged for success. In his testimony before this 
committee last month in December, General Abizaid said that, 
and I quote, ``it was disappointing,'' when I directly asked 
him about the training of the Iraqi police. In fact, he 
mentioned that, actually, we had lost some ground with regard 
to the quality of training and what the Iraqi police were 
supposed to be doing. I know that part of the big concern is 
that local governance and local control are going to be 
dependent upon those local police doing their job.
    Can you tell us what are the specific benchmarks that you 
will be gauging to see if we are having success with the 
training of the Iraqi police in these local communities?
    General Pace. Sir, my comments about success were 
primarily, and I think I differentiated, between the Iraqi 
army, the Iraqi national police and the Iraqi local police, and 
as you would expect, the local police are taken from the local 
community and, therefore, normally are from one community or 
another. As you get higher up the chain, the national police 
and the national army, you have a better opportunity to mix 
forces.
    We have with our embed teams not only the training that we 
give them, but the oversight of how they perform, and as units 
do not perform well, they are taken off the line by the Iraqi 
government. Those who have performed not like police but like 
sectarian individuals are fired. New people are hired, embedded 
and the unit is retrained. It is a long process, and it is 
currently more successful with the army than it is with the 
police, but both our embedded trainers and especially the Iraqi 
government are attuned to that problem and are working on it. 
It is a slow process, though, sir.
    Mr. McIntyre. The second question I wanted to ask is on 
economic reconstruction.
    Mr. Secretary, the President has proposed $400 million in 
quick response funds for local reconstruction and rebuilding 
projects. However, a recent report by the special inspector 
general said that the violence coupled with a lack of security 
was preventing reconstruction because of the danger to the 
lives of construction workers and also to the contractors.
    What will be done specifically to change this scenario, and 
also, are you in favor of keeping the Special Inspector General 
for reconstruction?
    Secretary Gates. To answer the second part of your question 
first, as I told the other house during my confirmation 
hearings, I do support that. When I was on the Iraq Study 
Group, the Special Inspector General briefed us, and it seemed 
to me then that he was making a very valuable contribution in 
helping the Department of Defense identify where there were 
weaknesses in the efforts that were being undertaken.
    With respect to the Commander's Emergency Reconstruction 
Program (CERP), I think we all believe that that is a critical 
element of the ``hold'' and ``build'' process. It is the 
immediate money that can be made available for putting people 
to work whether it is reconnecting sewer lines or picking up 
trash or beginning some modest projects, but what is clear is 
that it is of greatest value immediately after the military has 
complete--after the clearing operations have left because it 
does not really create jobs for the most part. It gives 
people--it puts people to work in cleanup and things like that 
in some projects, but it is not long-term economic development 
or reconstruction, and so a big part of the $10 billion that 
the Iraqis are talking about and a big part of what these 
provincial reconstruction teams (PRTs) are going to be doing is 
focusing on what I call the ``near term'' part of it, of the 
economic reconstruction, and that is actually beginning to 
start some longer-term projects and activities that actually 
provide real jobs for people, but the CERP money is very 
important in coming right after the ``clear'' operations.
    The comment that you cannot do reconstruction if the 
security is not there is very important. That is why the 
``hold'' part of this operation is so important, and as we have 
discussed, that is the part that clearly did not work last 
year.
    Mr. McIntyre. So what is the difference in the scenario--
that is what I was asking--in regard to how you are going to 
protect those workers?
    Secretary Gates. The most important part is maintaining the 
troop presence in the ``hold'' part where you are able to keep 
control of the security situation while the reconstruction 
begins.
    The Chairman. Mrs. Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman and 
Secretary Gates and General Pace. We certainly appreciate you 
gentlemen coming today and certainly thank you so very much for 
your service to our Nation.
    I have a number of questions about time frames and 
benchmarks which have been asked and asked and asked, so I 
think I will follow up with my time here on what my colleague 
just asked about the reconstruction and about the ``build'' and 
``hold'' portions of this new strategy, and let me preface this 
by telling you I come from Michigan, and very quickly, during 
the Civil War, actually, Abraham Lincoln was looking out of the 
White House, and looked down Pennsylvania Avenue, and watched 
the Michigan militia marching up Pennsylvania Avenue, and he 
said, ``Thank God for Michigan,'' and during World War II, our 
state was known as the arsenal democracy because we literally 
had the manufacturing capability to build the armaments that 
led the world to peace. My county has the largest veteran 
chapter in the entire Nation. We will always support our troops 
in every way that we can, but I must tell you, because of a 
transitional economy that we are now living through with the 
worst unemployment in the Nation, the lowest personal income 
growth in the Nation, et cetera, et cetera, et cetera, I have a 
question that I would like you to flesh out a bit of this 
``build'' and ``hold'' if you can.
    When we look at Iraq that has natural resources like oil, 
we do not really have that in Michigan, and my people are 
wondering how we can continue to support monetarily the 
reconstruction of Iraq when you are building new schools and 
transitioning grid lines, et cetera, et cetera in the $10 
billion that you spoke of of Iraqi money.
    Is it truly Iraqi money or was that money that we had given 
them that they just have not expended yet, if you could?
    Secretary Gates. It is Iraqi oil money. It is $10 billion 
of Iraq's own money from the sale of their oil.
    General Pace. Yes, ma'am.
    Mrs. Miller. Okay. Let me quickly ask one other question 
then. Everything that we are talking about here is predicated 
on the ability for us--and I will switch gears here--to train 
the Iraqis to stand up, to embrace their own freedom, and the 
Iraq Study Group as well has indicated that that is a priority, 
and I am just wondering, if you could enlighten me a bit, about 
what the training that we are doing to the Iraqis actually 
entails when you look at our Army and Marine troops and how 
long it takes them to get through boot camp--9 weeks, 11 weeks, 
13 weeks--and at what point they are ready to be combat-ready. 
How long is it taking us to train the Iraqi people, troops, to 
be able to be combat-ready to embrace their own freedom?
    General Pace. Ma'am, we start with raw recruits. There are 
about 30 different locations throughout Iraq, different 
academies for non-commissioned (NCO) training, different 
brigade-level headquarters where they do the actual training, 
but we start with the basic troops, and we basically help build 
a cadre of Iraqi trainers who do what we do in boot camp, with 
our assistance, which is to bring in PFC. Mohammad and train 
him up to the standard of being able to protect himself on the 
battlefield, and then take them to the field and learn to work 
in teams of 4, then teams of 12 or 13, then teams of about 30 
or 40, then teams of about 150, et cetera.
    Once they get up to about the battalion level, which is 
about 500 or 600 troops, then they are put into the Iraqi army 
available forces, and that is where the embedded U.S. teams 
stay with them and do on-the-job training, basically, as they 
go on, starting with lesser intense missions like patrolling 
and the like and learn through doing and learn through coming 
home and saying, ``Okay. What went right? What did not go 
right?'' just like we do with our own people.
    The leaders then go to some of the leadership academies, 
and we are assisted in this with the North Atlantic Treaty 
Organization (NATO) training teams that are there helping with 
some of the leadership training, and countries like Jordan have 
schools to which we send people.
    So it is very much modeled on our U.S. Army and U.S. Marine 
Corps boot camp through the fielding of units. The timeline--I 
need to double-check this figure. I think their boot camp 
period is about ten weeks, but I would need to check that, and 
let me get back to you.
    Mrs. Miller. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Let me also mention that I appreciate everybody staying 
within the five-minute rule. It is very, very helpful.
    Mrs. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Mr. Secretary, General Pace, it is good to see you.
    On Tuesday, I was with you and with about a dozen 
Democratic members at the White House, and at the time, I 
spoke, I think, pretty passionately about my deep concern about 
being able to support any kind of escalation and increasing 
troops going into Iraq, and I am increasingly agitated and 
upset about what I consider to be a lack of clarity as to 
exactly what this is all about. I listened very intently to the 
President's speech last night, and Mr. Secretary, I have read 
your remarks quite a few times, and I am struck by the third 
paragraph from the end of your speech where you say, 
``Significant mistakes have been made by the U.S. and Iraq just 
like in virtually every war in human history. This is the 
nature of war, but however we got into this moment, the stakes 
are now incalculable,'' and I have to tell you that I have deep 
respect for you and your service, but it is about the most 
trite statement, stunningly trite statement, that I have ever 
heard in my entire life. We did not get into this war in any 
kind of conventional way, and we certainly are not at this 
moment because this is where we intended to be, and I find it 
just absolutely ridiculous after the colossal and catastrophic 
failures of your predecessor--which, by the way, the reason you 
are sitting here is because Secretary Rumsfeld is no longer 
with us--and the complete obfuscation of the Administration as 
to what is going on in Iraq that we are thinking that a 
solution could possibly be--when we have had failure on 
``clear,'' ``hold'' and ``build,'' that it should be bait and 
switch, and the truth of the matter is why should we consider 
to do anything that puts one more American at risk until the 
Iraqis step up and do the things that we know they have to do?
    The idea that we should add more military force to enable a 
political solution that they cannot articulate and, frankly, we 
do not believe that they really intend to do is just folly. So 
I am sitting here, trying to understand how I can look anybody 
in the eye and say anything other than I can not support this. 
I am going to help lead an effort to make sure that we do not 
do this, and what are we going to do to be straight with each 
other? I appreciate that you are new on the scene, it is three 
weeks, and I appreciate the fact, Mr. Secretary, that you have 
taken a very tough job. You did not do this. This is something 
that you are doing for public service, but we have got to be 
straight with people. Adding more troops now to a failed policy 
is not going to bring our troops home sooner. This Congress 
insisted in the 2000 defense bill that we would bring our 
troops home and that we would begin to do that in 2007.
    That can not happen by adding more troops, and until we 
have guarantees that Iraq is going to stand up and fly right 
and stop being feckless and fight for their country as well as 
we are fighting for them, then we should not be doing this, and 
I actually do not have any questions, Mr. Secretary, but I 
really hope that the American people will begin to speak out 
very soundly about this or we are going to find ourselves here 
over and over and over again with maybe new messengers but 
with, unfortunately, the same message. I yield back the balance 
of my time.
    The Chairman. Thank you very much.
    Mr. Rogers from Alabama. Wait. No. It is Mister--we have 
Mr. Rogers.
    Mr. Rogers. I thank the chairman.
    First, I want to thank both of you for your service and 
sacrifice for our country and for being here.
    I was very pleased to hear your opening comments about the 
end strength. One of the things I have seen in my years on this 
committee is both Democrat and Republican members have been 
pushing your predecessor, Mr. Secretary, and General 
Schoomaker, to dramatically grow the end strength, and I am 
hoping that we start seeing that now your comments are 
indicative of that, and I am also interested to see in a later 
hearing some discussion from you and either General Schoomaker 
or his successor on the reserve component and what, if any, 
modifications you intend to implement that would affect the 
restructuring of that to be more utilitarian, but what I want 
to talk about in addition to manpower is equipment and 
specifically the MM13A3 family of vehicles.
    In 2007, this Congress put the money in the budget because 
the Army said they needed that family of vehicles to accelerate 
the modularity of the heavy brigade combat teams and to support 
the 1,500 vehicles that are currently in Iraq, but I understand 
now that in the upcoming supplemental that funding is zeroed 
out, and it will be in 2008.
    So my question is, ``What changed, and what is your 
position on the future of that family of vehicles and its 
conversion plan? Thank you.
    General Pace. Sir, I do not have the details in my head, 
and I am going to have to take that for the record. I do not 
know the Army's plan for that particular vehicle, and I will 
find out.
    Mr. Rogers. Thank you.
    Thank you, Mr. Chairman. That is all I have got.
    The Chairman. Thank you.
    The gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Mr. Secretary, General Pace, thank you for the sacrifices 
that you have made and are making for our country.
    General Pace, in your professional opinion, what is the 
optimal number of troops to have to secure and pacify Baghdad?
    General Pace. Sir, I have looked at this plan. I have 
looked at the analysis that the commanders have done. They are 
saying that the combination of about 50,000 Iraqi and about 
31,000 U.S. is sufficient given the right political and 
economic climate to do the job. I agree with that assessment, 
but I also believe we need to have an insurance policy so that, 
when we commit to doing this, we ensure a better probability of 
success, which is what the additional troops beyond what the 
commanders on the ground have asked for is all about. I cannot 
guarantee you----
    Mr. Andrews. I understand. Excuse me, General.
    Mr. Secretary, assuming then that 81,000 troops or so is 
the optimal or good number as the chairman just stated, 
according to the earlier testimony, there are 24,000 U.S. 
troops deployed in Baghdad presently. Why don't we just put 
57,000 more Iraqi troops in to make it 81,000? Why do we need 
any more American troops on top of that? Why aren't there 
57,000 Iraqi troops ready to do this job?
    Secretary Gates. Well, sir, Air Force First Lieutenant 
Robert Gates is no expert on military matters, and frankly, 
that is the judgment. The numbers on both the Iraqi side and on 
the American side are the result of conversations between the 
commanders in the field who are on the ground and familiar with 
the situation. I have to take their recommendation.
    Mr. Andrews. How much have we spent training Iraqi security 
forces in the last four years? Do you know?
    General Pace. Sir, I do not know the answer to that. We 
have trained 325,000. We are going to train 37,000 more. I do 
not know the exact number. It is available. I just do not have 
it in my head.
    Mr. Andrews. The department data from your department 
indicates that the defense forces of the Iraqis is now 137,500 
give or take as distinguished from the interior forces. I 
understand the difference in quality. You have 66,000 in now, 
so you need to ramp up 15,000.
    Aren't there 15,000 trained and competent Iraqi defense 
forces that could be shifted into Baghdad instead of these 
additional Americans, and if not, why not?
    General Pace. Sir, there are well-trained Iraqi forces. 
There are 15 relatively stable provinces right now. We have 
learned in the past that when you take forces--whether they are 
Coalition or Iraqi--from one place to another, unless you 
continue to cover the spot that was stable, that it becomes 
instable, number one. Number two, you need to take a look at 
the mixture of the forces you have versus where they are going 
to be deployed. It does not make good sense to take a mostly 
Shi'a organization and put it into action in a mostly Sunni 
neighborhood, for example.
    Next, we have capacities in the U.S. military that the 
Iraqis do not yet have. So the combination of where they are in 
their current capacities and our ability to reinforce them is 
how we came up with these numbers of 7,000 additional U.S. in 
Baghdad to help the 50,000 Iraqis.
    Mr. Andrews. General, again, if I may, that explains some 
of our skepticism. You just said, I think, accurately that 
putting Shi'a forces in a Sunni neighborhood is a problem. Well 
then, how is the plan ever going to succeed? If we are 
eventually going to turn this over to a military force 
supposedly loyal to this government, aren't we eventually going 
to have to put Shi'a forces in Sunni neighborhoods and vice 
versa?
    General Pace. Absolutely, sir, and we are going to have to 
do that over time and build the confidence. I do not understand 
the kind of hatred that festers for centuries, much less for 
minutes--but centuries--and we are going to have to build the 
kind of confidence where there are first mixed Iraqi units 
working in mixed neighborhoods and Shi'a units working in Shi'a 
neighborhoods and Sunni units working in Sunni neighborhoods, 
and taking care of criminals builds the confidence of the Iraqi 
people in their own armed forces, and that is going to take 
time because of the way that they think about each other, and 
we are just going to have to have some patience.
    Mr. Andrews. Thank you, Gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Mrs. Drake.
    Mrs. Drake. Mr. Chairman, I would like to yield my time to 
Dr. Gingrey.
    The Chairman. Doctor.
    Dr. Gingrey. Mr. Chairman, thank you, and I thank Mrs. 
Drake.
    I have two questions, one major and one relatively minor, 
but before that, I am going to give a short speech and do all 
that within the time limits of five minutes.
    You know, we heard a lot about the President's speech last 
night immediately after he spoke for 20 minutes. All of the 
pundits--political and media types on both sides of the issue--
were giving him a grade on whether or not he delivered a good 
message and all of the that, but in the final analysis, of 
course, this is not about him. This is not about how he 
delivered the message. It is not about Secretary Gates. It is 
not about General Pace. It is not really about the combatant 
commanders. It is about the plan, and I think it is a good 
plan, and certainly, if the plan does not work, then there will 
be heck to pay in four to six months, because what this is 
really about is the Iraqi people, the people of the United 
States and the people of the world and the whole Middle East, 
so that sort of leads to my major question. I heard you say 
earlier in response to someone else's question, I think maybe 
subcommittee chairman Neil Abercrombie, that this was an Iraqi 
plan.
    Mr. Secretary, that scares me because what they have done 
so far has really looked like the Keystone Cops, and I would 
like to think, when the President met--I think it was in Amman, 
Jordan with Prime Minister Maliki--that that plan was the 
Secretary of Defense's plan, the President's plan, our 
combatant commanders' plan, General Abizaid's plan, and maybe, 
to some extent, Prime Minister Maliki's plan. Comfort me a 
little bit so that I can be a little more assured that this is 
a good plan, and it has a chance for success.
    Then the minor question is in regard to the Commander's 
Emergency Response Program. I do not say that it is not a good 
plan, but I want to know if there has been some accounting and 
if there will continue to be accounting and how this money is 
spent so that we will know what works and what does not work.
    Secretary Gates. Well, sir, I would tell you, first of all, 
I was not in the government yet when the Amman meeting took 
place, and so I do not know exactly what the prime minister 
presented to the President, whether it was a set of ideas, 
whether it was a concept.
    What I do know is that that plan has been extensively 
examined by our own commanders on the ground under the 
leadership of General Casey and General Odierno. We have had a 
significant effect on how it is to be done, how best to 
implement it. We have had influence, as General Pace indicated, 
at the outset in the selection of the Iraqi commanders that are 
going to be involved in this, so I think that whatever set of 
concepts or ideas or rudimentary plan that the prime minister 
may have presented, in fact, that whatever he presented, has 
undergone enormous scrutiny by American commanders both on the 
ground and here in Washington.
    With respect to the CERP, I would have to defer to General 
Pace.
    General Pace. Sir, it has been effective. It does have 
accounting rules. We do keep track of what works and what does 
not work; cleaning up the streets, hiring Iraqi youth to clean 
up the streets and do those kind of small construction projects 
might work extremely well. What is really telling, and the 
Congress has been very helpful in this, and we thank you for it 
because we would give one of our troops a $90,000 weapon and 
tell them to fire it when he needs to, and then we wouldn't 
give him $5 to go hire an Iraqi youth to go police something up 
if it would take that young youth off the street. You have 
fixed that by giving us this ability to do that. There is 
accounting. It is used primarily for short-term employment to 
be able to have impact like building schools, building 
hospitals, cleaning up the streets and the like.
    Dr. Gingrey. Thank you, General.
    Thank you, Mr. Secretary.
    Mr. Chairman, I want to make sure that I yield my time back 
now back to Mrs. Drake, and I appreciate her yielding.
    The Chairman. I think she probably has ten seconds left.
    Let me say that I did not learn until a few moments ago, 
Mr. Secretary, that you had to leave before everyone had the 
opportunity to ask questions, and then you are kind enough to 
extend your time for a short period of time. I was in hopes 
that you could stay for the entire, because those down in the 
front row have as much right as we do on the top row to ask 
questions, and I have to comment that everybody is doing their 
best to stay within the five-minute time limit. But let's sail 
on as far as we can, Mr. Secretary.
    Mrs. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman and 
Secretary Gates. Before following up on a few of my colleagues' 
questions, I wanted to get sort of a simple response, if I may, 
Mr. Secretary.
    There is some question about the reserve mobilization 
policies and whether or not that would be a cumulative service 
for 24 months or consecutive 24 months of mobilization. We have 
some anxious families out there that I think are concerned 
about that. Can you clarify that for us?
    Secretary Gates. For that reason it is important you get an 
accurate answer, and so let me turn to General Pace.
    General Pace. Ma'am, from this day forward, based on what 
the secretary decided, when a reservist or a guard member is 
called to active duty, it will be for no more than 24 months 
from the time they mobilize at home station until the time they 
are demobilized at home station, irrespective of any previous 
service; 12 months maximum from the time of mobilization to the 
time of demobilization from today forward.
    Ms. Davis of California. Would you say for those--you are 
not extending the length of time then for any reservists that 
are mobilized in an involuntary fashion?
    General Pace. There are----
    Ms. Davis of California. That exist today.
    General Pace. There are reservists currently serving on 
active duty, specifically the guard members from the Minnesota 
Guard who are currently in Iraq whose duty will be extended, 
but for those who are going to be called to duty from today 
forward, their total time maximum will be 12 months on that 
call to duty, and then the policy is they should have 5 years 
before they were to come back into the bin to be potentially 
called back to active duty.
    Ms. Davis of California. Thank you very much.
    If I could go on and just mention a few other issues. I 
think that your clarification of the makeup of the Iraqi forces 
did cause some of us some concern, particularly because you 
noted the police forces that would be combined with the Iraqi 
forces, partly because we know that there has been an amount of 
corruption within the police forces, and that they weren't well 
trained as some of my colleagues have mentioned. What concerns 
me is that there is a key operational shift in the rules of 
engagement from being more restrictive to more permissive. Does 
that cause you any concern given the fact that those police 
forces may not be necessarily as well trained, and does that 
increase what might be beyond an acceptable risk of friendly 
fire?
    General Pace. Ma'am, the rules of engagement term really 
applies to what we allow PFC Pace to do or not do, and with 
regard to his or her ability to engage the enemy or protect 
themselves, that is not changing at all. What is changing is 
inside the Iraq government and the authority that they are 
going to allow their forces and our forces to do what we must 
do to impose the rule of law regardless of what neighborhood we 
are in. So if we confuse the issue by using rules of 
engagement, which has a very precise military meaning, with 
what we are really talking about, which is freedom of action 
inside of the communities----
    Ms. Davis of California. So we are talking about where they 
go and----
    General Pace. Yes, ma'am.
    Ms. Davis of California. That is helpful. I wanted to 
clarify that.
    There hasn't been much focus in the discussion today about 
the training camps and what we might do to disrupt the 
operations there. There was activity in about mid-November in 
Turkey by the Diyala province where there was an assessment 
made that, in fact, the Sunni insurgents there were more 
disciplined, better trained than they had anticipated. Can you 
respond to what in addition we will be doing to disrupt those 
training camps, and are we rediscovering that those troops are 
far better disciplined and able to engage in more traditional 
firepower than initially was anticipated?
    General Pace. I will try and answer you, ma'am, and if I 
misunderstood your question, please give me another shot. We 
do, and still have, have had and will continue to have a good 
chunk of our resources apply to the al Qaeda problem. We are 
working that every day and every night, and we will continue to 
work against the al Qaeda elements and foreign elements in Iraq 
without respect to the plus-up that is going to happen in 
Baghdad. So we will continue to pursue them.
    Ms. Davis of California. Thank you.
    The Chairman. I yield 30 seconds to the gentleman from 
Hawaii for an inquiry.
    Mr. Abercrombie. General Pace, so that we are absolutely 
clear with regard to Mrs. Davis's question, because this thing 
has gone out over television now to the whole country, you said 
in clear terms, at least the way I understood it, that the 
guard and reserve units will remain one year of being 
mobilized, followed by five years demobilized. However, the 
secretary's testimony then states: ``however, today's global 
demands will require a number of selected guard and reserve 
units to be remobilized sooner than this standard. Our 
intention is that such exceptions be made temporary.''
    So, Mr. Secretary, can you--that is a contradiction of what 
General Pace just said. Is the mobilization for one year, 
period, followed by five years of demobilization, period, or 
will there be certain select guard units that will be 
remobilized?
    Secretary Gates. Let me let General Pace clarify his 
remarks.
    General Pace. Thank you, sir.
    Sir, the policy is----
    The Chairman. As quickly as possible, please, General.
    General Pace. One year mobilized followed by five years is 
the policy that the Secretary articulated this morning. That 
will be for those units that are mobilized in the coming 
period. Some of the units that will be mobilized in the coming 
period will not have had five years since their last 
mobilization. That is, I think, where the discrepancy is. There 
will be some units that have four years, perhaps as little as 
three years, between the time that they were last demobilized 
and this mobilization. But----
    Mr. Abercrombie. I don't have all the time, General.
    Mr. Gates, I think you have got to clearly delineate after 
this hearing is over precisely what the policy is.
    The Chairman. Thank the gentleman.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. I will try not 
to be any more redundant than everybody else has been. Prime 
Minister Maliki is getting immense pressure from us and others. 
Can you comment briefly on pressure from within, groundswells 
of pressure from within his country?
    Also, decisions that we make have consequences, and in 
despite of what was previously said by one of my colleagues, I 
think it is very important that we understand the consequences 
of failure in Iraq. When the chairman and I were in Iraq late 
last month, we asked the State Department, we asked the Central 
Intelligence Agency (CIA) and others what they thought the 
doomsday scenarios were like. None of them were acceptable, and 
I think it is important for the American people to understand 
what those consequences can be and in all likelihood could be. 
So if you could flesh out your comments there.
    And then finally, as we look at Al Anbar, we were told that 
the sheiks ought to kick al Qaeda and Iraq out of their own 
province. It is just an acknowledgment that we understand the 
risks of creating additional Sunni militias in a province that 
at one point in time could become our enemy, and that we at 
least understand the consequences of that.
    Any comments on those three areas?
    Secretary Gates. First of all, we think there are pressures 
on Prime Minister Maliki from inside; that there are a number 
of elements of the government and political factions that are 
dissatisfied with the violence, dissatisfied with the failure 
of the government to perform in a number of different areas, 
and, one might speculate, saying I could do a better job than 
he can. So I think he is feeling internal pressure to try to 
perform.
    With respect to the consequences of failure, first of all, 
I want to be clear the consequences of failure that I described 
were not necessarily those of the failure of this plan, but a 
failure by leaving Iraq in chaos and a disintegrating state. 
Those are where you get the more dire descriptions of the kinds 
of things that can happen, and that includes not necessarily 
Iraq being a subordinate state to Iran, but clearly Iran having 
enormous influence in southern Iran and probably in Baghdad. 
You would have neighbors trying to interfere, not only the 
Iranians, but potentially the Turks, the Syrians, the various 
other Sunni states feeding money, so you could have a 
significant ethnic cleansing problem, and you would then have 
questions on the part of countries that have been supportive of 
the United States in terms of our commitment to them in the 
Gulf area. So those are some of the consequences that we could 
talk about.
    I will let General Pace answer the last questions.
    General Pace. Sir, you are right about we do not want more 
militias to either disband or integrate. We want the elected 
governments to have the monopoly on the use and availability of 
power. What is encouraging in the Sunni area out in al Anbar 
are the police forces are the ones being recruited by the 
sheiks to be able to provide security for their own people, and 
they are going to places like Jordan for training so they can 
come back better trained to do the job.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Langevin.
    Let me mention the next five people I hope we can get to 
before you leave: Langevin, Franks, Larsen, and Drake, because 
there was a mistake in the listing a few moment ago, and Mr. 
Cooper.
    Mr. Langevin. Mr. Secretary, thank you for being here. 
Welcome before the committee.
    General, thank you for being back.
    I think the most people, the average person, would see what 
is happening in Iraq and say that our military is in the middle 
of a civil war, and that we are babysitting the civil war, and 
it would appear that in many ways our military is acting more 
as a police force than the warfighters that they are. Is the 
President using our military as a police force in Iraq?
    The second part of my question is, Secretary Gates, in your 
testimony you called for a significant expansion of our Army 
and Marine Corps to adapt to existing and emerging missions. 
This committee has strongly supported an increase in end 
strength, and I want to thank you for your willingness to 
pursue that approach.
    One question I have is how the new troops would be trained. 
Our troops in Iraq have been conducting a combination, as I 
said, of both policing and insurgency missions as opposed to 
traditional combat missions. So, Secretary Gates and General 
Pace, what would you envision as the primary purpose of the new 
Army and Marine Corps forces, as combat troops or as 
counterinsurgency forces, or for policing missions? And also do 
you think that our existing training is sufficient to meet our 
military-specific mission requirements in Iraq?
    Secretary Gates. Let me answer your first question and ask 
General Pace to address your second question.
    With respect to whether the United States military is being 
used as a police force in Iraq in a civil war, I would make two 
observations. The first is I think in many respects there are 
four wars going on in Iraq at the same time. The first is 
Shi'a-on-Shi'a violence in the south, the second is sectarian 
violence in Baghdad and in its environments, the third is an 
insurgency, and the fourth is al Qaeda.
    Whatever was the case in 2003, the reality is that all the 
bad actors in the region are now active in Iraq; Hezbollah 
trainers, Iran, Syria and so on. So I think that to call it a 
civil war frankly oversimplifies the complexity of the problems 
in Iraq today, and I think that the U.S. forces are not being 
used as a police force, but are, in fact, being used in an 
effort to try and first of all, and over the past couple of 
years, train and bring up an Iraqi military force able to 
exercise the writ of the government around the country and now, 
under this, to support an Iraqi effort to try and get control 
of the sectarian violence in Baghdad.
    General Pace. Sir, the additional troops are for combat and 
to strengthen our combat units, the numbers. What you have 
right now is sufficient force to have one year in combat in 
Iraq, home for a year, and back over. What happens in that year 
that you are home is after you take leave and have the people 
who are going to get out get out, and the people join join, you 
have enough time left in that year to train your unit to be 
well trained for the kind of operations they are going to be 
doing in Iraq, but you don't do the kinds of combined arms 
training that you may need elsewhere in the world.
    By adding to the strength of the Army and strength of the 
Marine Corps, you will be able to have more time between 
deployments for units and then be able to train them not only 
for missions like they are doing in Iraq, but also for the 
kinds of capacities and capabilities that we need to be able to 
defeat other challenges in the world like the troops were 
trained before they went into Iraq in the first place.
    Mr. Langevin. Thank you. I will yield back the balance of 
my time.
    The Chairman. Thank you.
    I hope we can get, Mr. Secretary, through the next four 
members, Franks, Larsen, Drake, Cooper, and we get Mrs. Drake 
because of a mistake made on the list. And you will be back 
with us in three weeks, as I understand it. With the 
concurrence of the gentleman from California, Mr. Hunter, 
priority will be given to those who do not have the opportunity 
today to ask you questions. I would hope, General Pace, will 
you be able to stay after these next four members?
    General Pace. I will stay.
    The Chairman. Could you, please?
    All right. Call Mr. Franks. Five minutes.
    Mr. Franks. I thank you, Mr. Chairman, and thank you Mr. 
Secretary, General.
    You know, sometimes I think that those of you who carry the 
shield of freedom for the rest of us do so often in such a 
noble and effective way that it is easy for us to forget the 
challenges and logistics you face in a war situation, and I am 
absolutely convinced that that is the case in this 
circumstance, that you face a changing, dedicated, committed 
enemy that is perhaps the most dangerous ideology and fighting 
force that we have ever really dealt with in terms of 
ideological commitment. They change so quickly that you have 
had to change your strategy as you go, and it has been my 
observation you have done that. And yet somehow the American 
people to a large degree seem unable to understand some of 
those doomsday scenarios that everybody points out.
    It occurs to me that failure in Iraq will ultimately lead 
to terrorists gaining control of that area, that oil-rich 
province, and possibly even the entire human family. If this 
ideology is germinated into the greater populations of Islamic 
countries throughout the world, I don't think any of us can 
overstate the danger of that happening.
    With that said, I am convinced that the greatest challenge 
those of you in the military and those of us here at home face 
is the potential loss of will among the American people, and it 
occurs to me that that is something that has to be addressed, 
and it is a non-military approach. It is something to help not 
only our people understand just how serious and dangerous this 
enemy is and how serious the challenges that you face are, but 
to somehow also suppress the fallacy and propaganda that the 
other side puts forth through al Jazeera and other places.
    So my question really is basically twofold: how can we help 
the world and even our own citizens understand the danger and 
the potential of the enemy that we face and the challenge that 
you face more clearly so that we are all on the same page, and 
how can we suppress the false propaganda that seeks to recruit 
additional terrorists to this growing danger to the world?
    Secretary Gates. First of all, I think that one of the ways 
to help educate the American people, quite honestly, are 
through hearings like this and through the hearings that this 
committee and its counterpart on the Senate side and other 
committees will hold on this matter and this kind of dialog.
    I have not had the opportunity to respond to a couple of 
things that have been said, but let me assure this committee 
one of the things that I am proudest of is the relationship 
that I established with our congressional overseers in the 
intelligence business when I became acting director in 1986. 
There was never a single additional scandal or conflict or 
major conflict between CIA and the Intelligence Committees 
after I became acting director of Central Intelligence until I 
retired in 1993. And one of the things I was proudest of was 
the relationship I established with Mr. Boren's father when he 
was chairman of the Senate Intelligence Committee. And I worked 
very closely with Mr. Hamilton when he was chair of the House 
Intelligence Committee.
    This committee will not get spin from me. It will not get 
canned--it will get straight answers, and I am not afraid to 
tell you what I think. I didn't take this job, as I told the 
Senate, to be a bump on a log, and I didn't take it to 
compromise my reputation for being a straight talker. So that 
is what you will get from me.
    So I think the first answer to your question is that 
hearings like this, speeches like the President's, the more 
dialogue we can have, the more questions that you all can ask 
that get at what is on the minds of the American people I think 
contributes to public education.
    One of the sad things that we did after the end of the Cold 
War, in answer to your second question, the second part of your 
question, was dismantle the entire apparatus in the American 
government for communicating the message about what this 
country is about and what goes on in this country, and we are 
trying to reconstitute that now. But right now until very 
recently, we have had very limited capability. The old 
capabilities we had through Voice of America and Radio Free 
Liberty and those things have largely disappeared, and we are 
trying to rebuild those, but we have to have that kind of a 
capability to get our message out.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Mr. Chairman, thank you, and, Mr. Secretary and 
General Pace, thanks for being with us today.
    Mr. Secretary, you were born in Kansas, came from Texas 
A&M, but you are one--we are all proud of you in Big Lake, 
Washington, so we are looking forward to your return in a 
couple of years.
    Secretary Gates. Mr. Larsen is my representative now.
    Mr. Larsen. So I have to be very careful. Some days the 
view of Mount Constitution seems farther away than 3,000 miles, 
and I know today is one of those days for you and for me. But I 
have a couple of questions for the both of you. First, 
actually, for General Pace. And I want to plant a quick image 
here, and it is the image of the ``can you hear me now'' 
Verizon Wireless guy, because he is just a guy holding the 
phone, and there is this huge network behind him. That is the 
image Verizon is trying to portray.
    Like that image, the Iraqis are supposed to take the lead, 
but I think for many of us they are like the guy holding the 
phone, and the U.S. military is the network behind the guy, 
making everything work and taking all the risks, and I think 
that is part of the frustration that we have, certainly on this 
side of the aisle, certainly from my colleagues on the other 
side of the aisle as well.
    So I want to ask you about this deployment in Iraq, or in 
Baghdad. You mentioned earlier that right now the Iraqis have 
42,000 security folks, variety of security folks, allocated to 
Baghdad. Does that mean that they are there, or there are 
42,000 Iraqis that are supposed to be there but it is actually 
a lesser number, or is it 42,000 of a higher base that didn't 
show up, first.
    Second, we expect three Iraqi brigades additionally 
equaling 8,000 personnel. What is the current unauthorized 
absence rate or absent without leave (AWOL) rate for Iraqi 
military personnel, and how many of those 8,000 do we actually 
expect to show up? And will we stop send being brigades if the 
Iraqis do not show up?
    General Pace. Sir, thank you.
    Your analogy I appreciate. I would tell you that right now 
the guy holding the phone has a crowd behind him that is mixed 
Iraqi and U.S., and what they need is a guy to put the 
advertisement on the television from their politicians to say, 
``Pay attention to these folks, they are here to help you.'' 
That is what we need, sir.
    Forty-two thousand present for duty in Baghdad. Of the 
325,000 total that we have trained of the Iraqi forces, about 
89 percent are still on active duty, given the attrition rates, 
and I don't know the absent without leave number. I will have 
to get that for you, sir. But there is a percentage of that, 
and I don't want to guess what that percentage is, but that is 
already factored into the 42,000 on the ground.
    Mr. Larsen. Of the 8,000 Iraqi personnel that are going to 
be put into Baghdad, do we have an expectation that 8,000 will 
show up, or do we have an expectation that it will be fewer 
than that based on what we know about AWOL rates and attrition 
rates?
    General Pace. Their table of organization calls for 2,500 
per brigade, so my math rounded up from 7,500 to 8,000. If they 
perform to normal standard and they have some of their folks go 
on leave, probably 2,000 per 2,500 will be on duty, so probably 
about 6,000.
    Mr. Larsen. What do you mean by saying 500 per brigade 
being on leave? Does that mean they are not showing up? If they 
are going to be ordered to Baghdad, we want them in Baghdad; we 
don't want them on leave.
    General Pace. Fair. I misspoke, and I appreciate the 
opportunity to fix that. In fact, I should point out another 
thing, and that is for the units that are moving to Baghdad, 
that the Iraqi government is going to pay them a stipend of 
$150 deployment money per month, which is big bucks. They are 
going to get the first month before they leave to give to their 
families, and they will get the multiple of $150 per month for 
the deployment time when they get back. So there is no leave; I 
misspoke.
    Mr. Larsen. Before the red light goes on, I need to know 
the answer to this. Will we stop sending brigades if the Iraqis 
don't show up? That was the last question. If the Iraqis don't 
fulfill their commitment, what is the standard we are going to 
use to say we are not sending our folks? If they are taking the 
lead, they should be taking the lead.
    General Pace. Sir, they should be taking the lead. I expect 
them to take the lead. I am going to plan for success. I am 
also going to understand that there is potential for lots of 
things to change. If the situation changes, we will reassess, 
but I can only reiterate that each of the commitments that they 
have made to date have been met, to include the beginning of 
the movement of their first brigade to Baghdad.
    Mr. Larsen. Thank you, Mr. Chairman.
    If I may, Mr. Secretary, the burgers at Big Lake Bar & 
Grill are on me next time you are in the district.
    The Chairman. Had I known that there was a time problem, 
Mr. Secretary, and that you had a presidential commitment, I 
would have been able to announce that earlier, but to rectify 
that, we will call--when you appear three weeks from now, we 
will call upon those who did not get the opportunity to have 
preference.
    We will call on Mrs. Drake to correct the mistake of the 
listing, and Mr. Cooper, and he will be the last questioner of 
you.
    We, of course--if you could, General, if you would stay, we 
would appreciate that, after the Secretary leaves. I hope that 
meets with your ability to meet your presidential commitment.
    Secretary Gates. Yes, sir. I don't want to mislead; it is a 
commitment with the Secretary of State.
    The Chairman. You will be a couple minutes late, but we 
appreciate it.
    Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. I would like to 
welcome you to our committee and certainly to thank both of you 
for being here, especially in such a timely manner when we are 
discussing such a new strategy. So thank you for that.
    Truly I believe that it is painful for everyone to have 
American troops serving in harm's way, and especially to be 
here talking about increasing the number that would be 
currently serving there. But I would argue that we don't talk 
enough about the threat to America and the threat to the world 
if the terrorists are successful in their goal of taking over 
Iraq and controlling those very vast oil resources.
    General Pace, I would like to take a moment and thank you 
and every man and woman that has served in Iraq or Afghanistan 
for your determination that this fight with this enemy will 
take place on their soil and not on our soil. And I thank God 
every day that you have been successful in keeping our enemy 
busy, in taking out their leaders and shutting down their 
money, and that we have not had another attack here.
    Now, one of the problems with being at the end of the list 
is most of the questions have been asked, so I have been 
sitting here thinking that there is something even more I want 
to ask you, and that is one of the things we talk about often 
in here, is: what is the greatest threat to America? We 
identified in one of our gap panels what we think is the 
greatest threat; that is, the American people grow weary of 
this war and demand of their leaders that we leave before the 
Iraqi people can accomplish what you are working on right now.
    And I wonder, do you think the intent of our enemy is as 
intense right now to attack us again, or are they waiting until 
they accomplish the thing we are most concerned of, and that is 
wearing the American people down, knowing that they would grow 
tired? Everyone is familiar with the quote that said when 
Americans cut and run like they did in Vietnam, they leave 
their agents behind.
    So is that another reason that we haven't had an attack on 
this soil is they know they would awaken the resolve of the 
American people and that we would understand the threat, or do 
you think we have just been successful with the things that we 
are doing and the work of our very brave military men and 
women?
    General Pace. Ma'am, I do not know what I don't know about 
what they have tried. I do know that thanks to the good Lord 
and a lot of hard work, and probably a good bit of luck, that 
since 9/11 we have not had another attack here. It is clear to 
me based on the things we do know about, like those who tried 
to put explosives on multiple planes leaving Europe several 
months ago and other intelligence that we have, that our 
adversaries continue to look for ways to attack us now while 
they try to set themselves up to destroy our way of life long 
term.
    So this fight is worth it, and if we leave, we are fighting 
them now, they will follow us home. So those of us in uniform, 
although we do not like to fight, are proud of the contribution 
we are making right now to the safety of this Nation. Thank 
you.
    Mrs. Drake. We are very grateful for that. Thank you very 
much. Thank you, Mr. Secretary.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Cooper, wrap it up, at least with the Secretary.
    Mr. Cooper. Thank you, Chairman, and thanks to each of you 
gentlemen for your patriotic service to America, particularly 
to Mr. Gates. We appreciate your candor and humility. Thank 
you.
    Secretary Gates, the bottom line of page four in your 
testimony, you say the President, Ambassador Khalilzad, and 
General Casey are persuaded that Prime Minister Maliki has the 
will to act against all instigators of violence in Baghdad. 
Now, as a Shi'a-supported leader Prime Minister Maliki has been 
reluctant to take on the Mahdi Army. Can you tell me that now 
our troops or coalition forces with the Iraqis will be able to 
go into Sadr City and start disbanding the Mahdi Army?
    Secretary Gates. The assurances that he has--that Prime 
Minister Maliki has given to the President and to General Casey 
and to others is that the coalition forces and the Iraqi forces 
will be permitted to go into all parts of the city to go after 
all lawbreakers regardless of their sectarian allegiance.
    Mr. Cooper. There seems to be a disconnect here, because 
David Brooks in today's New York Times has a pretty tough 
column saying basically the plan put forward by the President 
last night is the opposite of the plan that Prime Minister 
Maliki was proposing. He suggested we exit all U.S. troops from 
Baghdad. And so David Brooks, who is usually pretty friendly 
with the Administration, says that the impression the 
Administration is trying to give is, quote, ``the opposite of 
the truth.'' And in his final paragraph, Mr. Brooks goes on to 
say: ``the enemy in Iraq is not some discrete group of killers, 
it's the maelstrom of violence and hatred that infects every 
institution including the government and the military. Instead 
of facing up to this core reality, the Bush Administration has 
papered it over with salesmanship and spin.''
    Is Mr. Brooks wrong?
    Secretary Gates. Well, I don't know what--as I indicated 
earlier, I don't know exactly what Prime Minister Maliki gave 
to the President, but my recollection is that within the last 
few days he has said publicly to the Iraqi people that he 
welcomes the additional U.S. help.
    Mr. Cooper. General Pace, it is my understanding that the 
regular training regimen for Iraqi forces is three weeks of 
training--then, they get one week off to take their pay back to 
their families, and we really don't know where they go--and 
that there is no punishment for AWOL Iraqi soldiers. So we 
don't really know as a practical matter whether all this 
training--if we trained, as you said, 325,000 Iraqis, we don't 
really know whether we have really just trained a lot of 
militia members. If we don't know where they are one week a 
month, and there is no punishment for being AWOL, how is that 
effective training?
    General Pace. Sir, there is punishment for being AWOL, 
which is dismissal from the service. They do take their 
paychecks home once a month because they don't have a 
functioning banking system, and if we want to help increase the 
size of the Iraqi army by 25 percent, it would be good to help 
them build a banking system inside their country so we don't 
have to have all their troops carry their money home.
    Your comparison, for our folks we have four weekends a 
month normally when we are home. They are on duty 21-plus days, 
and then they are off 7 days. So the best answer I can give 
you, sir, is that 89 percent of those who have been trained are 
still in the armed forces; the rest have either completed their 
time or have been dismissed for, as you mentioned, being AWOL.
    Mr. Cooper. General, with the limited language capacity of 
our troops, do we even know who is Sunni or Shi'a or which 
tribe individual Iraqis belong to?
    General Pace. Sir, I can't imagine that all of our troops 
know what tribe each of their fellow Iraqi soldiers come from. 
I can't imagine they do know that.
    Mr. Cooper. I see that my time has expired. I thank the 
chairman.
    The Chairman. Thank you very much. Mr. Secretary, we really 
appreciate you giving us your maiden voyage. We look forward to 
seeing you in three weeks, and we wish you all the best. It is 
a tremendous challenge that you have for our country, and we 
look forward to seeing you and visiting with you three weeks 
from now, if not before.
    Let me say, General Pace, we appreciate your staying.
    For the record, we are keeping the notes, staff is keeping 
notes, as to who did not have the opportunity to ask questions 
of the Secretary today. We will lead off with those three weeks 
from now.
    General Pace is going to stay, and let me tell our new 
members this: General Pace is the Chairman of the Joint Chiefs 
of Staff. Under a law that we passed that has origination in 
this committee, by the way, called Goldwater-Nichols, his job 
is to advise the Secretary of Defense and the President, and he 
may--underline the word ``may'' because I looked it up the 
other day, General--he may advise us as well. He is not a 
policymaker, he is the chairman of the joint chiefs of staff, 
and consequently if a policy question is put to him, he would 
be in his rights to say, ``Ask the Secretary.''
    So with that, Mr. Secretary, we really appreciate it. If 
there is a time constraint next time, I wish at least I will 
know about it so we can make the announcement. We appreciate 
your indulgence, and I am sorry we had the votes in the middle 
of everything also. I think we would have gotten through.
    Secretary Gates. Mr. Chairman, it is a pleasure to be with 
you here today and to embark on my maiden voyage here. If I 
may, because of the importance of this subject, if I could take 
30 seconds to clarify on an issue that Mr. Abercrombie raised 
on the guard and reserve. General Pace properly described our 
reserve mobilization process; one year mobilized, five years 
demobilized is our policy goal. However, there will be this 
transition period during which some units will be mobilized 
sooner than the five-year demobilization period.
    Our intention, particularly through the growth of the 
services and so on, is to get to the one to five rotation, get 
back to the one to five rotation cycle as soon as possible, but 
the important point is that even though they may be mobilized, 
remobilized sooner than the five years, involuntary 
mobilizations will not exceed one year, where they have been 
from anywhere from 18 to 24 months.
    Mr. Chairman, thank you very much.
    The Chairman. Mr. Secretary, look forward to seeing you 
very shortly. Thank you again.
    Mr. Marshall, do you wish to ask questions of the general?
    Mr. Marshall. I would be delighted to. Thank you, Mr. 
Chairman.
    General Pace, I appreciate your service to the country. I 
am over here.
    General Pace. Thank you, sir.
    Mr. Marshall. I especially appreciate the service of all 
the men and women who have gone over there in the lower ranks, 
actually out there doing patrols and worrying about IEDs and 
snipers and things like that every single day.
    The Chairman. Would the gentleman yield? Excuse me. The 
Republicans are meeting at 5:00 to choose subcommittees. Mr. 
Gingrey is staying, as I understand, to represent them, and I 
wanted the rest of the committee to know where they are as of 
this moment.
    Go ahead and start again. I am sorry.
    Mr. Marshall. I am starting all over again? Thank you, sir.
    Mr. Cooper raised this issue, and others have spoken about 
it also, the commitment of Iraqis to this effort, and that is 
terribly important. I think we both agree on that. In fact, it 
would be very nice if we could say that this is an Iraqi idea 
entirely; Iraqis are taking the lead. We are retaining our 
discretion to say no, we are following their lead and assisting 
them with their effort to regain control of their capital. We 
have talked about a number of preconditions that are being set 
by us, and there have been a lot of references to Prime 
Minister Maliki having agreed, and yet it is clear he initially 
proposed a different plan. He did welcome additional U.S. 
forces, but those forces were to surround Baghdad, not be 
inside. His units were going to take care of what was going on 
inside Baghdad, and that was just going to be Shi'a and Kurd 
units, principally focused on Sunnis.
    So it is a different plan altogether, and it would be very 
helpful to all members of this committee if you could provide 
us with translations of video of Prime Minister Maliki actually 
saying to the Iraqi people that the plan being described by the 
President is the plan that he supports; that he does 
contemplate mixed units of Iraqis working with Americans in 
Shi'a neighborhoods in Sadr City without restraints, the sorts 
of things that we have heard. That is terribly important to 
building our confidence that this plan can work. And so is it 
possible for you to maybe provide that to members of the 
committee?
    [The information referred to can be found in the Appendix 
on page 89.]
    General Pace. I can help search the record. I know he gave 
a speech on 6 January, which is his Armed Forces Day, wherein 
he stipulated many of the points you just made. I think he gave 
a speech again yesterday or the day before where he did the 
same again.
    It is important to point out, I think, sir, that the 
initiative, this is an Iraqi initiative, and that the plan to 
implement that initiative has been developed jointly between 
our U.S. officers and his. So as we have worked together, we 
have changed some of our thoughts about what was possible, they 
have changed some of the thoughts about what is possible, but 
both our leaders, our President and their prime minister, have 
agreed that this is the proper way forward.
    Mr. Marshall. America needs to understand the Iraqi 
government and Iraqis generally have not proposed anything as 
significant as this. It is a real indication of the progress 
that is being made in the development of their security forces, 
their confidence in themselves and their commitment to secure 
their own country, and they are the ones that have to do it. We 
all know that. You can help all of us if you could give us more 
ammunition. I just don't have it. If it was done in the armed 
services address that he made on January 6th or the last couple 
of days, it would be very useful for all of us as we talk about 
this plan to have the evidence that supports his commitment, as 
opposed to simply statements by us that he does commit, coming 
from his mouth. That would be helpful.
    The PRTs, are you familiar with this dispute concerning 
funding between Defense and State? Are you familiar with it?
    General Pace. Sir, I am vaguely familiar with it. As I 
understand it, it has to do with our laws of our land which 
make it very difficult for U.S. Armed Forces to provide any 
kind of living accommodations, food support and the like for 
other members of our own government. So when the PRTs, for 
example, want to live upon one of our bases that we have, for 
them to go to our mess halls, for them to be living in our 
areas, for whatever reason, the laws of our own land make it 
difficult for us to support them.
    Mr. Marshall. I am familiar with the problem here; I am 
more interested in whether or not it has been solved. The 
President references to the fact that, when double--the PRTs--
that only goes from four to eight. So, that is not really an 
impressive total if we are going from four to eight. But the 
four we have right now suffer from that problem. At least, last 
time I was there, over Christmas, it was described to me, and I 
would like some assurances that problem has been resolved.
    General Pace. Going from 9 to 18, sir, and I am told by our 
legal folks that the legal folks have found a way between those 
at State and those in DOD to make this happen. It is not the 
lack of wanting to. It is that we don't want to break the laws 
of the land.
    Mr. Marshall. Finally, this is going to be very fluid, the 
development of exactly how this mission is accomplished; can't 
be predicted in advance with precision, and I assume that the 
understandings that you enter into with the government will 
contemplate that things can change, that a benchmark has to be 
modified, a plan has to be changed, that sort of thing, as you 
proceed.
    General Pace. Sir, that is why I think benchmarks are good 
when they are within a time frame as opposed to a specific 
date, because there is room then to modify and to adjust as 
needed.
    Mr. Marshall. Thank you.
    The Chairman. Mr. Udall. Is he there?
    Mr. Ellsworth then.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    Thank you, General. I appreciate your being here. I want 
you to know that the reason I asked to be placed on this 
committee was so that I could be closer with you and for all 
our men and women that wear our uniform, as well as my 
constituency.
    I heard a lot today about that this needs to be solved 
politically, not militarily sometimes, and I guess that would 
bode that there would be those that would lobby that we send 
21,000 politicians to Iraq as opposed to our military. That 
might make some people very happy.
    When I was asked in my district about Iraq, my comments 
were that I wanted to talk to the military leaders, not to the 
politicians, and so you being of that nature, I would like you 
to look me in the eye as I mull over this plan and tell me that 
this plan in the near future will produce less violence, fewer 
roadside bombs; that Iraq will be closer to freedom, because I 
think the President said his goal was freedom and democracy, so 
that it be closer to democracy; and probably most important 
that this plan will bring America closer to a time when we are 
at peace. If you can touch on that, I would appreciate it.
    General Pace. Sir, first, no guarantees, because the enemy 
gets a vote, and the Iraqi government has to perform.
    Second, with regard to violence, because there will be 
increased presence of troops in Baghdad, there will be most 
likely an increase in violence, not a decrease in violence for 
the short term.
    Having said that then, as they clear and hold, you can 
expect the violence to go down. The goal of a free Baghdad that 
supports its people will be closer, and our ability to bring 
our troops home will be closer. But I need to look you in the 
eye and tell you at least short term there is as much 
probability that there will be more violence because there will 
be more troops as there is that there will be less violence.
    Mr. Ellsworth. Thank you, General.
    Mr. Chairman, I yield.
    The Chairman. The gentlelady from Kansas, Mrs. Boyda.
    Mrs. Boyda. Thank you, Chairman Skelton. It is an honor for 
me to serve with you on this committee, and I look forward to 
working under your stewardship to support our working men and 
women and their families.
    I congratulate President Bush last night for saying that 
our troops in Iraq have fought bravely, and they have done 
everything that we have asked them to do. General Pace, Kansas 
is rightly proud of their service and their sacrifice, and it 
is with the welfare of their family first and foremost on my 
mind that I address you today.
    I would like to go back to my colleague Mrs. Davis's 
question a little earlier about the guard and reserve and try 
to make my question as clear as I possibly can here. And I 
would like to tell you what I thought I heard, and if you would 
respond whether I did or did not hear that correctly.
    Right now our guard and reserve have been told that they 
will be called up for no more than 24 months cumulative over 
the course of the current operations. We are going to change 
that to be one in every five years for people who are recruited 
from this point on. Did I hear you say that--let me just 
preface, too, that I am very pleased to have been on the 
personnel subcommittee this morning, so I ask the question as a 
member of the personnel committee, but quite honestly as 
someone who gets so many questions back in the district from 
families about their family members that are currently serving.
    Of the guard and reserve that are currently serving in 
Iraq, will we extend them for more than 24 months cumulative 
during this operation? And I would appreciate a yes or no on 
that.
    General Pace. No, ma'am, we will not. However, the unit 
that is there right now, 1st through the 34th, if it is 
extended, it will be extended for four months. If it stays that 
entire time and comes home and demobilizes, it will have been 
mobilized for a total of 23 months from the time it started 
until the time it finishes, and that is not good, which is why 
the commitment to those who are going to be mobilized now is to 
be no more than one year from the time they leave their front 
door until the time they walk back through their front door.
    Mrs. Boyda. So when we are making the transition from one 
to five, and we are going with units now and not personnel 
individuals, you don't see a time when they are going to be 
overlapping when someone's unit might be deployed when, in 
fact, they have already gotten their 24 months of service in? 
Will they be exempt from that unit?
    General Pace. This is the problem. We started out in 
Afghanistan with volunteers, which was wonderful. Then we went 
to Iraq. So the unit that had to go to Iraq already had people 
that volunteered in Afghanistan. We took them out and released 
them with two or three units' worth of people to fill this unit 
up. That geometric progression now, we are literally taking 10, 
15, 20 units to build 1 unit to go to Iraq, that has to stop 
for the safety of our troops because unit integrity is 
important.
    Mrs. Boyda. Cohesion.
    General Pace. So you stop that. Now we say unit one, you 
are going to go. Inside of that unit you may very well have an 
individual who has already been mobilized.
    Mrs. Boyda. That is my question: will any one of those 
individuals be asked to serve more than 24 months cumulatively?
    General Pace. It is possible. When you do the math, yes, 
ma'am, it is possible.
    Mrs. Boyda. It would seem that it would be. I didn't know 
whether you were going to be making exceptions. Again, I feel 
quite certain I am going to get this question not only as on 
the personnel subcommittee, but as so many of the guard and 
reserve.
    Let me just clarify, too, the people of Kansas as well as, 
I am sure, the rest of this Nation want to serve this country 
admirably, faithfully, bravely, but they just need to 
understand what their futures are and how we plan to roll this 
out. When you look at the plan, it is difficult to understand 
how some individual might unfortunately be caught up in your 
brigade is going, your unit is going, and we are going to ask 
you to go, too.
    So, could I ask again, do we think that there is going to 
be any individual that will be in a guard and reserve unit that 
will be asked to serve more than 24 months cumulative on this 
operation?
    General Pace. It is possible, ma'am. The numbers will be 
small, and that is why the secretary also made it very clear 
that there is going to be hardship decisions. So if there is a 
hardship to that family, that will be taken into consideration.
    Mrs. Boyda. I certainly hope the Army rules that out in 
plenty of time.
    The Chairman. Mr. Murphy.
    Mr. Murphy. Thank you.
    General, thank you for being here today and for serving our 
country so well. I just actually got back from active duty a 
few years ago. I am actually an Iraq war veteran.
    General Pace. I thank you for your service.
    Mr. Murphy. Hopefully I did a good job. I landed myself 
here. Sir, I was a captain with the 2nd Brigade Combat Team, 
2nd Airborne Division in Baghdad from 2003 to January of 2004. 
Nineteen men in my unit and my brigade gave the ultimate 
sacrifice. I am deeply troubled by the President's announcement 
last night about the escalation of force, sir.
    My sector was one of the nine districts in Baghdad. Mine 
was south central Baghdad, the al Rashid section. About 1.5 
million Iraqis. That is the same size as my hometown of 
Philadelphia. My father served in uniform as a police officer 
in Philadelphia for 22 years. He served with the same size 
population, 1.5 million Philadelphians, the same size as in 
that sector of Baghdad. He served with 7,000 Philadelphia 
police officers, yet there was only one brigade of us, 3,500 of 
us. And I heard you say today, sir, that the plan was--as 
implemented, that there was only going to be one battalion of 
American soldiers and one brigade of Iraqi soldiers commingled, 
and I just wanted to make sure, was that clear? Am I 
understanding that?
    General Pace. Sir, it is almost right, and if it is not, it 
is because of my way of saying it, not your way of hearing it. 
There are nine districts, each of which will be commanded by a 
brigade commander. In those 9 districts there will be a total 
of 18 Iraqi army and police brigades. The math is not exactly 
two per district, but over the scale that is what it turns out 
to be. So you will have the manpower of even, again, not every 
district being the same, but you will have the manpower of one 
Iraqi brigade, army; one Iraqi army brigade, police, and one 
U.S. battalion in support of them, plus our own brigades that 
are already there.
    Mr. Murphy. Is there an intent to brief Congress, the 
American public on the success of these individual nine 
districts so it is very clear to the American people what 
should be in store, and is that plan going to be monthly, every 
other month, quarterly, sir? Do you know if there is a plan in 
either DOD, sir?
    General Pace. I think it is a good idea to show how we are 
doing, and I will take a note and see if we can't come up with 
a way that makes sense, that doesn't confuse people.
    Mr. Murphy. Thanks, sir.
    I have a couple other questions real quick. When I was 
there, I saw firsthand, and I know I have pictures that are up 
on this wall, sir, those two pictures, the color photos over 
there, we trained 600 Iraqi Civil Defense Corps members, now 
Iraqi National Army. What you will notice in that picture, sir, 
is that this is in late 2003 when I was there. They didn't even 
have uniforms, and we took the initiatives as good troopers do 
to buy Chicago White Sox hats so they could be recognized that 
they were a uniform.
    I heard your testimony today, sir, to say there is a ten-
week basic training. We only trained them for two weeks. 
Actually, we trained them one week, and we took the initiative 
to train them an additional week. I know you said there is 
basically 30 places where they do basic training. Is there any 
thought of training them outside so it is not necessarily nine 
to five, where they go home; training them outside either in 
Iraq or remote Iraq where there is one commingled place?
    I remember when I went to Ft. Knox, Kentucky, over a decade 
ago, sir, I wasn't going to the Jersey shore in a weekend; I 
was going to basic training, because it is a profession, 
something you have to take very seriously. You can't be 
worrying about your family back at home or your imam back at 
home, whatever it is. So is there a thought on changing the way 
we train these soldiers so they can commingle and they 
understand how to take orders for one Iraq and not for one 
certain imam?
    General Pace. I will take the note and check on that. I 
like the idea. To give you a little bit of comfort, now we are, 
in fact, giving each soldier helmet, flak jacket, uniform, 
rifle, machine guns, Humvees, communications gear, and the like 
so that when they go into the field, they have the protection 
that you would expect them to have to be able to fight as 
soldiers, feel like soldiers, act like soldiers, fight like 
soldiers.
    I take your point on the training, sir. Thank you.
    [The information referred to can be found in the Appendix 
beginning on page 100.]
    Mr. Murphy. Since I have very quick time as a freshman, is 
the AK-47 still the biggest weapon they will get, or anything 
higher than that? Do they train higher than an AK-47?
    General Pace. Machine gun; yes, sir.
    The Chairman. The gentleman from Georgia, Mr. Johnson. Let 
me interrupt if I may.
    Mr. Abercrombie [presiding]. General, and those from the 
Secretary's staff who are with you, could I urge you--on those 
questions that are taken for the record, would you urge them as 
well as the staff who is with you to get them back to us in a 
timely manner? Sometimes we have gotten them back so late it 
did not make that much difference, so I would appreciate that.
    General Pace. I will do so.
    Mr. Abercrombie. So carry that message back.
    General Pace. I will, sir.
    Mr. Abercrombie. The gentleman from Georgia.
    Mr. Johnson. Thank you, Mr. Chairman.
    General Pace, it is an honor for me to speak with you 
today, and I want to thank you for serving your country as well 
as all of the other military personnel throughout the globe 
that have served this country, and I am speaking to you today, 
which is the same day that President Bush is in my home State 
of Georgia, speaking to the very troops which will be subject 
to this escalation, or ``surge,'' as some call it.
    It is the second and third brigades of the 3rd Infantry 
Division based respectively in Fort Stewart and Fort Benning, 
Georgia, and both of those brigades would be deployed to Iraq a 
little sooner than originally planned. They would make up 
approximately one half of the proposed troop surge, and it has 
been our strategy in Iraq, at least since, I would say, 
probably 2004, to clear, hold and build. Isn't that a fact?
    General Pace. Yes, sir. Excuse me. Yes, sir, it is.
    Mr. Johnson. And we seem to have no problem when it comes 
down to clearing, and we can clear for a certain period of time 
before we get, you know, new impact from the insurgency coming 
right in once we depart, but we can hold but to--excuse me. We 
can clear, but to actually hold and then to build at the same 
time is a problem that has not been solved over the last 4 
years since we have been in Iraq, and now we are being asked to 
dedicate another 22,000 troops to hold in Baghdad for 12 to 18 
months. We should have cleared the whole area, and are able now 
for the Iraqis or then for the Iraqis to hold the police 
indefinitely, while at the same time we will have sunk money in 
to build the place up, to build Baghdad anyway, in the hope, I 
guess, that the situation in Fallujah would not deteriorate any 
further as well as other parts of Iraq.
    So how much is it going to cost us--you may not be able to 
answer this question. How much will that hold and build part 
cost in dollars, given the fact that I think folks say that 
about $9.5 billion is missing in Iraq right now, missing in 
action in Iraq? How much are we talking about for the hold and 
build part, and how much is it going to take for this surge of 
troops for the next--we are talking about 12 to 18 months, but 
even through November, how much is that going to cost the 
American taxpayers?
    General Pace. Sir, clear, hold and build has worked in 
places. It has worked in Fallujah. It has worked in Mosul. It 
has worked in Ramadi, the difference there being that there 
were enough Iraqi troops who were allowed to do their job, and 
they would have been successful had they been allowed to 
perform their mission.
    Mr. Johnson. As to those same troops, by the way, we do not 
know whether or not they go home at night and take off their 
military uniform and put on their insurgent uniform, correct?
    General Pace. Sir, the vast majority of the Iraqi troops 
are very loyal to their government and are doing what we expect 
them to do in the Iraqi army. The Iraqi government is going to 
spend $10 billion of their money in Baghdad, so that amount is 
about all I can project for you there.
    Mr. Johnson. That will be for ``hold'' and ``build,'' and I 
heard the term $1 billion is what we are being asked to--or you 
are not asking this committee, but you are asking the American 
people.
    General Pace. Sorry. I do not know what the U.S. might kick 
into that pile, sir. That is State Department business, but I 
do know that Iraq is going to put in $10 billion, and I can 
tell you that the cost of this operation--if all 20,000 troops 
end up going and if they were to stay through 30 September of 
this year, then the additional cost to the U.S. is $5.6 
billion.
    Mr. Johnson. All right. Thank you.
    General Pace. Sir.
    Mr. Abercrombie. Are you finished, Mr. Johnson? Are you 
finished? Then the next would be Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Abercrombie, and Mr. Chairman, 
I guess, temporarily.
    General Pace, like everyone else, I want to thank you for 
your service and for your endurance here today. I come from 
Eastern Connecticut, which on December 27th, we actually had a 
funeral at St. Patrick's Cathedral in Norwich because we lost a 
guardsman in Afghanistan, another brave example of human 
excellence, which I think saddened the whole state, but it also 
reminded us--it was a very harsh reminder--that there is still 
a pretty nasty situation still going on in Afghanistan, and my 
question to you, really, is about the impact of the President's 
plan on our troop levels in Afghanistan. There was a press 
report in The Baltimore Sun earlier this week which quoted, I 
believe it is, General Tata, who is commander over there, 
Anthony J. Tata, Army Brigadier General Anthony J. Tata. 
Hopefully, I am pronouncing his name right, but he indicated 
that a U.S. Army infantry battalion fighting in a critical area 
of Eastern Afghanistan is due to be withdrawn within weeks to 
deploy to Iraq where President Bush is expected to announce the 
dispatch of thousands of additional troops as a stopgap 
measure, and the General also went on to state that, this 
spring, the Taliban is expected to unleash a major campaign to 
cut a vital road between Kabul and Kandahar and that the 
Taliban intended to seize Kandahar, the second largest city of 
Afghanistan and where the group was organized in the 1990's.
    I guess my question is, number one, is that correct that we 
are actually taking troops out of Afghanistan and deploying 
them to Iraq as part of this plan? And frankly, the second 
question is, is that very wise, given the fact that it is a 
pretty tenuous situation? A NATO commander says that we 
actually do not have sufficient troop levels there, and the 
number of attacks by the Taliban has tripled in the last two 
years, and I think a lot of people would have a great concern 
about whether we are not only risking a lot in Iraq in terms of 
if there is a failure there, but we may be actually putting at 
risk a very tenuous situation in Afghanistan as well.
    General Pace. Sir, it is not correct. It would not be wise. 
We have 22,500 troops in Afghanistan today. About half of those 
are in the NATO command. About the other half are in the U.S. 
command doing the training and equipping. That number is not 
going to change. I do not know where that rumor came from about 
a unit that is currently in Afghanistan being moved over to 
Iraq. That is not going to happen, and I am aware of the troop 
plans for replacements in Afghanistan. We are going to maintain 
our current strength in Afghanistan. So, sir, it is just not 
true.
    Mr. Courtney. Well, hopefully, someone will correct The 
Baltimore Sun because, actually, I got calls in my office 
because this seemed like, again, robbing Peter to pay Paul in 
terms of the situation.
    General Pace. It would not be a wise thing to do.
    Mr. Courtney. I have one quick question--I do not know if I 
have enough time--regarding the rules of engagement with our 
troops in Iraq. I, again, have constituents, a gentleman whose 
son served at the Abu Ghraib Prison who was one of these troops 
who was very frustrated about the fact that we were rounding up 
members of the militia and then, in many cases, releasing them 
for what appeared, at least to this gentleman's son, to be for 
political reasons--which was about as demoralizing and as 
frustrating for his father, who was a veteran, a former Judge 
Advocate General (JAG) officer who actually supported my 
opponent in the last election, but a good friend nonetheless--
and whether or not those rules of engagement are going to 
change as part of this new operation.
    General Pace. Sir, we do have a problem with the capacity 
of the Iraqi penal system to maintain the population that they 
should maintain in captivity and then to prosecute them. To my 
knowledge, it has not been because of politics, but because of 
the system unable to handle the load that, unfortunately, some 
of the folks who were captured on the battlefield--after about 
two to three weeks, if there is not enough evidence against 
them to prosecute them in the Iraqi system, they are set free. 
That is extremely frustrating to our troops, and we are working 
as fast as we can with our State Department and with their 
government, with the Iraqi government, to be able to have 
enough capacity in their system, both judicial and in their 
prison system, to handle the load of these folks.
    Mr. Courtney. Mr. Chairman.
    The Chairman [presiding]. Thank you very much.
    Before I allow Mrs. Gillibrand to ask questions, let me 
introduce two friends of mine from Kansas City who have been 
very patient and who have sat through this hearing. It is a 
very special hearing because the gentleman helped me get 
elected my very, very, very first time to Congress, and I just 
wanted to recognize his being here, Doctor and Mrs. Gary 
Everett from Kansas City, Missouri. I appreciate your being 
here, and I appreciate your helping me be here very much.
    Mrs. Gillibrand.
    Mrs. Gillibrand. Thank you, Chairman. It is an honor to 
speak today.
    I begin my remarks with just an expression of gratitude to 
the men and women in the armed forces who have served so ably 
and given so much sacrifice to our Nation, and I am very 
grateful to you for your sacrifice, General, and thank you for 
being here to answer the questions of the committee.
    General Pace. Thank you, ma'am.
    Mrs. Gillibrand. My first question is, throughout this 
testimony, both you and Secretary Gates have said statements 
such as, with the commitment of a political and an economic 
side, a troop surge makes sense. Adding any number of U.S. 
forces will not succeed absent political reconciliation and 
progress given the right economic and political climate to do 
the job, and in the President's speech last night, he talked 
about giving every Iraqi citizen a stake in the country's 
economy by encouraging Iraq to pass legislation to share oil 
revenues amongst all Iraqis and then show commitment to deliver 
a better life by spending $10 billion on reconstruction 
infrastructure projects for jobs.
    This may not be your area of expertise, but to the extent 
you have been briefed on these issues, with regard to the Iraq 
oil revenues, who currently controls them, and when will this 
process take place of transferring the control to the Iraqis?
    General Pace. The Iraqi money belongs to the Iraqi people 
and is controlled currently by the Iraqi government. I believe 
that the money is held for the Iraqi government in banks in New 
York City, I believe, but they control the expenditure of those 
funds. I also was told that during the time of the recess of 
their assembly, that their parties worked through the wording 
of the law that they are working on right now in their 
assembly, that would allocate the resources of their oil 
revenue to Iraqi families, so that families actually got X 
amount of money per month from the oil proceeds. That is about 
as far as I know.
    Mrs. Gillibrand. So you are saying that the U.S. currently 
does not control the Iraqi oil or the oil revenue?
    General Pace. Fundamentally, that is correct. We do have 
their money in our banks that they draw down as they see fit, 
and I am way out of my lane right now, but there are some kind 
of international controls about which I know nothing that apply 
to that.
    Mrs. Gillibrand. And with regard to the reconstruction 
contracts, presently, the public understands the majority of 
those contracts are being managed by U.S. companies. Is there a 
plan or does part of this economic development change for those 
contracts to be transferred to Iraqis so that their 20-year-
olds have the jobs to rebuild the roads and the schools and the 
hospitals?
    General Pace. Ma'am, I do not know. That is State 
Department business, but that makes sense to me.
    Mrs. Gillibrand. Okay. Let me talk about strategic issues. 
That may be more in your area. Is there a plan B? There was 
some discussion in The New York Times today that the 
Administration staff have intimated there is a plan B that may 
include some measure of redeployment or containment or a 
breakup of the country.
    Have you been briefed on that or on part of those 
discussions?
    General Pace. Ma'am, you are asking a Marine who is focused 
on winning whether or not he has a plan in case he does not 
win. So my answer to you is we are going to focus on winning--
--
    Mrs. Gillibrand. Okay.
    General Pace [continuing]. And we are allocating enough 
resources to be able to handle the unexpected.
    Mrs. Gillibrand. Sure.
    Under the first Bush Administration, the President had a 
strategy that there always had to be an exit strategy.
    Is that something that has been discussed under this 
Administration as part of your normal policy for military 
operations?
    General Pace. The term ``exit strategy,'' to me, is 
pejorative.
    Mrs. Gillibrand. Okay.
    General Pace. It sounds like you are leaving no matter 
what. That is not the plan. The plan is to be successful and 
then to be able to come home because the Iraqis are able to 
take care of themselves.
    Mrs. Gillibrand. Okay. My last question.
    With regard to this current deployment of 20,000 troops, is 
there an estimation of how long they will be deployed? During 
the testimony today, we have heard a few months, several 
months; we will reconsider after six months.
    Do you have a sense of what your timing is for that need 
for escalation?
    General Pace. I do have a sense of that. I would be happy 
to talk to you off-line about that. I would not want to tell 
our enemies how long they have to worry about this.
    Mrs. Gillibrand. Thank you.
    I give back the rest of my time.
    General Pace. Thank you, ma'am.
    The Chairman. Thank you.
    General, along that line, it was in a previous hearing that 
I raised the issue with the--my recollection is it was with the 
former secretary about one of your predecessors that General 
Colin Powell had four requirements before going into battle, 
and number four was an exit strategy. I will just point that 
out to you, and I am sure my recollection is correct. You may 
wish to go back and refresh your recollection at your 
convenience.
    Mr. Kline. He was not a Marine, was he, Mr. Chairman?
    The Chairman. He was not a Marine. You are right. The 
gentleman--Mr. Kline, you are not recognized.
    Mr. Kline. Thank you.
    General Pace. Sir, I do recognize the term ``exit 
strategy.'' I just think it has become a pejorative, get-out-
of-town word, which is why I prefer not to use it. When General 
Powell used it, it did not have the meaning it has today.
    The Chairman. I understand. You know, I will take it back. 
It was General Abizaid that I made the comment to.
    Mr. Sestak.
    Mr. Sestak. General, thanks for staying late this evening.
    General Pace. Sir.
    Mr. Sestak. I understand that the prime minister came to us 
with this idea or this plan. What would we have done if he had 
not in view of the President's saying this situation was 
intolerable to him?
    General Pace. Sir, that is a fair question.
    We collectively have been working here in Washington as 
joint chiefs--I'm sorry. I have got to back up.
    It was around June or July of this year that it became 
apparent that the Samarra bombing, in fact, had had an effect 
on the population that we had not predicted, and it was at 
about that time that we realized that instead of being able to 
do what we thought we would do this year, which is cut back our 
troops significantly, that we were not going to be able to do 
that. Clearly then, around July or August of this year, we were 
saying we are not where we thought we wanted to be by now. Our 
goal is over here. What do we need to change to attain our 
goal?
    We then began in Washington, the joint chiefs, working 
separately, Central Command working separately, and the guys in 
Baghdad working separately to take a look at the various 
options. We worked that for a couple of months. We called in--
we chiefs called in outside experts. We called in guys and gals 
who had just recently been in combat, and we came up with what 
we thought were some good ideas. We shared those both down and 
up the chain of command. General Abizaid was doing the same 
thing. General Casey was doing the same thing. In doing that, 
we were sharing information between General Casey and his Iraqi 
counterparts. So the fact that the prime minister came forward 
was not done in a vacuum.
    We had been thinking about how we might be able to do this 
better, what might the next steps be. A primary principal step 
to that was Iraqi leadership, Iraqis taking charge, and we 
shared that information with our Iraqi counterparts, so we were 
very pleased when the prime minister came forward at his 
initiative and then asked us to help him plan how to do that.
    Mr. Sestak. General, you had touched upon the readiness of 
forces, in view of Iraq, to be able to handle the rest of our 
global security environment.
    Particularly since you have, over the past years, been 
fairly instrumental in the series of efforts to try to have our 
war plans changed to where time meant something more than it 
ever did before, in view of that--we are heel to toe in 
deployments, particularly our Army and Marine Corps in Iraq--
have we had an impact of significance upon our readiness, not 
just in the regional contingencies we planned for, but on the 
global war of terror.
    General Pace. Let me try to answer your question. If I do 
not get it accurate, please come back at me, sir. We can handle 
any additional challenge that comes our way. We have 2.4 
million Americans in uniform--active, guard, and reserve. We 
have got about 200,000-plus of those currently in the Gulf. We 
have our reserves who are fantastic. Where the time factor 
comes in is when you have a chunk of your force employed and a 
good part of your precision, both intelligence precision and 
application of force precision, engaged. If you are called upon 
to respond to another active aggression, then you are going to 
go with less precise weaponry.
    There will be--potentially, more bombs have to be dropped 
to do the same target. There potentially will be more 
casualties on both sides because it does take you longer to 
mobilize over and do the job. So it is not the risk of being 
successful. It is the timeline that you would prefer to do it 
on and the precision with which you prefer to do it.
    Mr. Sestak. Sir, would you, in view of what you just said, 
absent Iraq, have asked for an increase in the size of the Army 
and the Marine Corps then? We can handle the situation. It is a 
bit more blunt and a little more difficult, but absent Iraq, if 
it had not happened, in view of what you said how we can handle 
it now, not too badly, would we have had to ask for an increase 
in the Army and in the Marine Corps?
    The Chairman. Would the gentleman yield? That may be in the 
category--ask me that question. That may be in the category of 
a policy, political question.
    For the gentleman, I have been trying to get 40,000 more 
Army soldiers since 1995, and we have struck pay dirt. They are 
going to do better than that in recommending it, and I think 
this committee will do that.
    If you feel you can answer that--I hate to interrupt you, 
Mr. Sestak, but----
    Mr. Sestak. I was over my time. I'm sorry.
    The Chairman. No. No. We will make up for that. I am eating 
it up for you, but for the gentleman, if you can answer it, 
please do.
    General Pace. Sir, as best I can. I will try my best.
    Mr. Sestak. I withdraw the question then.
    The Chairman. No. No. No. Go ahead and ask it.
    General Pace. Sir, I will try to give you my best answer. I 
will give you my best answer, and you can see if it answers 
your question.
    It is a supposition that, really, I would not want to try 
to apply to the future, but I can tell you this. You have--we 
have problems. The world has problems in Pakistan, Afghanistan, 
Iran, Iraq, Syria, Lebanon, Somalia, Chad, Sudan, and keep on 
coming around the globe. So, as you look at it, whether or 
not--no matter what you think about Iraq, there is going to be 
a need for U.S. strength for the foreseeable future, and based 
on that, with or without Iraq, then, yes, I would want a larger 
Army and a Marine Corps. The fact is, the necessity of having 
to plus-up in Iraq has caused me to get to that conclusion 
sooner than I might otherwise have come without the stimulus.
    Mr. Sestak. General, thanks for your answer just because my 
major concern about Iraq is not Iraq in isolation. It is Iraq 
and what it is doing to the rest of our security around the 
world, not just the regional contingencies you plan for, but 
Chad, other places where we are not able to engage or be able 
to respond to a smaller contingency, and that is my major worry 
about putting more troops in Iraq. In my belief, we are in a 
tragic misadventure, and I am concerned about the security 
interest in the rest of the world. Thanks for your time, sir.
    General Pace. Thank you, sir.
    The Chairman. Thanks so much.
    Ms. Giffords, and then we will go to a second round, if 
any. I do know Mr. Hunter has a question, but Ms. Giffords, go.
    Ms. Giffords. Thank you, Mr. Chairman.
    Thank you, General. I appreciate the honor to be here 
today. You can imagine this is my first hearing in the House 
Armed Services Committee, and let me assure you that it will be 
a memorable one.
    I would like to start by asking you a couple of questions 
that pertain to my district. I now represent the 8th 
Congressional District of Arizona, and in my district is Fort 
Huachuca, an Army intelligence post, but it also does training 
beyond the Army, of course. I would imagine that, in order for 
any plan to work in Iraq, reliable and timely intelligence 
would be essential. Would this new plan include proportional 
requirements for intelligence services?
    General Pace. The units that deploy will need the embedded 
part of their own units that are dedicated to intelligence, but 
we will not need more intelligence about what is going on--I 
said that wrong. We will not need more assets on the U.S. side 
to have more intelligence about what is going on in Baghdad.
    What we need is more citizens of Baghdad to come forward 
with human intelligence to tell us what we need to know and 
what the Iraqis need to know to be able to do our job more 
efficiently, but we should not need more intelligence of the 
kind that Fort Huachuca provides.
    Ms. Giffords. Mr. Chairman. General, my concern is that we 
have, perhaps, lost the hearts and minds of the Iraqi people. 
What can we do to incentivize the Iraqis to come forward with 
that information?
    General Pace. I think the right thing for us to do is to 
provide security for them so that they can have the comfort 
knowing that if they come forward today that we are not leaving 
two days from now, and somebody is not going to come into their 
house and kill them for giving us the information.
    Interestingly, the hotlines that we have--you call on a 
cell phone and just leave information--those get about 4,000 
tips per month, but we need more individuals to come in and 
tell us about the person in that house or of the activity down 
the block so we understand where the bombs are being made, who 
the guys are who are doing it. I mean, people know in their 
neighborhoods what is going on, but they are fearful of coming 
forward, and if we can provide security that they can depend 
on, then they will drop some of their fear.
    Ms. Giffords. Thank you, General. Davis-Monthan Air Force 
base is also in my district and is actively involved in many 
aspects of the war on terrorism. In particular, it is home of 
only one of five combined air operation centers. I am curious 
to what extent will Navy and Air Force personnel be used in 
lieu of Army and Marine Corps personnel primarily in ground 
combat support transportation units.
    General Pace. The Navy and Air Force have been very 
proactive in seeking ways that they can help. God bless the 
sailors and airmen out there. They are wonderful and doing a 
great job, and they have been--to the tune of about 5,000 to 
8,000 soldiers and Marines have been replaced by sailors and 
airmen so that the soldiers and Marines could do other things, 
everything from driving trucks to very complex things like 
electronic warfare officers. We have Navy officers who normally 
fly electronic warfare aircraft, who are with our ground troops 
on the ground who are helping them de conflict all the spectrum 
that is out there, all the jammers and the radios and all of 
the other things that make the battlefield so complex 
electronically.
    So we have found that the Air Force and the Navy have 
unique skills that are being applied in a new way that is 
actually helping our force protection on the ground.
    Ms. Giffords. General, do you have a concern for future 
recruitment, for example, of the Air Force for a young man or 
woman who signs up with the Air Force and then who find 
themselves doing some sort of ground transportation or 
something they really did not sign up for initially?
    General Pace. I think as long as we are up front and honest 
with people about what they are volunteering for that we will 
get the right amount of recruits.
    Example, the Air Force and the Army used to be primarily 
European centric. They would go to Europe, and they would spend 
a three-year tour, and if they did not, they would go on to the 
next duty station. I don't mean to be pejorative about that. 
That was very important to do. Since that time, the Army and 
the Air Force have changed dramatically, and they are deploying 
all over the world all of the time. Folks who join the Army now 
understand that. So, as long as we ensure that we properly 
advertise what job we are asking them to do, we will be okay.
    More significantly and to the point, yes, I do worry about 
recruiting because we are asking our young men and women to go 
in harm's way, and we need to make sure that the missions we 
ask them to do are worthy of their sacrifice, and that is where 
we need to continually pay attention so that, when we ask them 
to serve, we ask them to serve for a reason that is vital to 
this country.
    Ms. Giffords. Thank you, General.
    The Chairman. Thank you. That completes the round.
    As far as I know, Mr. Hunter and Mrs. Davis are the only 
ones who wish to ask an additional question. General Pace, you 
are a real trooper for sticking it out with us. We appreciate 
it.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    General Pace, how are you doing?
    General Pace. I am doing great. Thank you.
    Mr. Hunter. Can you hang in there a little bit longer?
    General Pace. You bet.
    Mr. Hunter. Just for the record, this committee raised the 
end strength of the Army from 482,000 to 512,000, and we raised 
the end strength of the Marine Corps from 175 to 180, and this 
review that we did, this committee defense review that we did 
last year for the new gentleman from Pennsylvania, concluded 
that we needed nine more Marine battalions and eight more Army 
brigades, and depending on how you mix that in the Army, 
particularly with reserve and active, that is not too far from 
what the Administration is requesting according to the 
secretary's statements to us today.
    With respect to precision munitions, this committee has led 
the effort, and we have more than doubled the stockpile of 
precision munitions. The exact number of every type of munition 
is classified, but I can assure the gentleman from Pennsylvania 
that we have more than twice the precision munitions right now, 
in fact, far more than twice than we had in the year 2000.
    General, I have got a question, and I think it goes more to 
what you can do for us later than what you can do for us now. 
There is a lot of complexity to this combined arms operation 
with the Iraqi forces in Baghdad, and we have had--you have met 
necessarily with a big committee, and you have made the 
statements following the President. You have given briefings to 
the press, and you have given us a good statement on this. We 
are going to need to have more detail on the operation. I think 
that the operation in general is a good concept to the idea of 
the Iraqi brigade, and again, the brigade from the Tawani 
charts that I saw were three maneuver battalions and an Iraqi 
brigade. Although, it may not be as full up with personnel as 
the U.S. brigade.
    Three maneuver battalions and one backup American 
battalion, is that your general concept in each of these nine 
sectors in Baghdad?
    General Pace. Sir, that is close.
    Mr. Hunter. Okay.
    General Pace. I can say yes, but----
    Mr. Hunter. No. I want you to explain it so we know 
precisely what you are talking about.
    General Pace. Every district is different.
    Mr. Hunter. Okay.
    General Pace. You are going to have a mixture of Iraqi 
police brigades and Iraqi army brigades. There are going to be 
18 total--9 Army, 9 police brigades--so it is going to be 3, 4, 
5 or there----
    Mr. Hunter. But will there be at least one Iraqi brigade in 
each of the nine districts?
    General Pace. Yes, sir.
    Mr. Hunter. Army brigades?
    General Pace. I would have to check my facts on that, sir.
    [The information referred to can be found in the Appendix 
beginning on page 97.]
    Mr. Hunter. Okay, and have you scrutinized the makeup of 
the Iraqi brigades with respect to how many maneuver battalions 
they have? Are they consistent or do they vary fairly widely?
    General Pace. I have not. General Casey has. I have not, 
sir.
    Mr. Hunter. Okay. We need to look at that so, when we look 
at the match of the U.S. versus the Iraqi, we know what the 
match is going to be because I presume that our battalions 
coming in will be full up, and what I think we do not want to 
see is a situation where the Iraqis are to take the lead, and 
then because of--because they do not have the fire power or 
they do not have as many folks showing up, while they may be 
able to plant the flag, they may not be able to take the lead. 
So I think what we need right now, I think, is more detail on 
this plan.
    Nonetheless, let me just say thank you for coming, and to 
all of my colleagues, I was here. To some degree, I have been 
here before. I was here when Ronald Reagan was responding to 
the Soviet Union's ringing France and Germany with SS-20 
missiles, our moving ground launch cruise missiles and pershing 
2 missiles to the theater to offset them. The editorials had 
said that World War III was on its way, and we had to acquiesce 
immediately, and this was unwinnable and then the Russians 
picking up the phone and saying, ``Can we talk?'' and we 
ultimately brought the wall down. I was here when El Salvador 
was unwinnable, our next Vietnam we were told by the left, and 
today, Salvadoran soldiers are supporting us in the Iraq 
theater.
    There are a lot of challenges here. This is a new world and 
bringing freedom, even a modicum of freedom, to this new world 
with the ethnic fractures and the tribal fractures is very 
difficult, but I think we have got a good chance of winning 
here in that I think we can have a government that has got a 
modicum of freedom, is a friend, not an enemy of the United 
States and will not be a state sponsor of terrorism, and I 
think this government can hold, which is the main thing we want 
to see, a free government that can hold, and it has a military 
apparatus that can protect it.
    So, General, I am going to strongly support this request--
or it is not really a request. It is an action by the President 
to send in reinforcements into this theater, both in Anbar 
province and in Baghdad. Let's work closely in the next couple 
of weeks to let us look at the details because the details here 
are pretty important, especially around the Baghdad area. So, 
if you could accommodate us on that, we would certainly 
appreciate it.
    General Pace. I understand, sir.
    Mr. Hunter. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Just a footnote that I appreciate your mentioning the end-
strength situation.
    As I understand it, General, the increase which Chairman 
Hunter mentioned of 30,000 Army and 5,000 Marines will be 
recommended in the base budget this coming year plus an 
additional--am I correct?--7,000 soldiers--am I correct?--and 
how many Marines or can you say at this point?
    General Pace. Sir, I know the numbers. I do not know the 
budget. As far as budget supplement or budget base?
    The Chairman. We are a few-days' premature. That is fine, 
but at least that is a starting point.
    General Pace. Yes, sir. The numbers would be the 30,000 
Army plus 7,000 for the new year----
    The Chairman. That has got it. All right.
    General Pace [continuing]. Plus 5,000 Marines, plus 5,000 
for the new year.
    The Chairman. That answers the question.
    General Pace. How it is funded, I am not sure, sir.
    The Chairman. Yes, that answers the question.
    Mrs. Davis, wrap it up.
    Ms. Davis of California. [Inaudible. Off mic.]
    General Pace. Yes, ma'am. That is a great question.
    We have got about 40 percent of our Army's equipment either 
currently in Iraq or in the depots, being repaired. So, as we 
move these new forces forward, we need to be very careful about 
ensuring that they have the proper equipment to go into harm's 
way, and the Army is working on that very hard.
    Ms. Davis of California. Are those M1117 armored vehicles 
going to be available to them?
    General Pace. Which, ma'am?
    Ms. Davis of California. The latest in the armored 
vehicles, are they going to be available to them?
    General Pace. There will be a mixture of what we call 
``Level 1,'' which is the latest version that you just 
mentioned and Level 2, which is a little bit less capable than 
that because the production line has just delivered about the 
95-percent level to theater for the forces that are there now. 
There are, for example, about 1,800 Marine vehicles that have 
been replaced by the newer vehicles that are up already and 
almost as protective that are parked there right now that can 
and will be used by our troops, and we will make sure through 
use of the vehicles that those who are going into harm's way 
have the best equipment we can give them. That is something 
that the Army and Marine leadership is very attentive to, to 
make sure that PFC. Pace is getting as good equipment whether 
he is in a unit that is there now or one that is about to 
arrive.
    Ms. Davis of California. Thank you, General. Thank you for 
being here.
    General Pace. Thank you, ma'am.
    The Chairman. Thank you very much.
    A formal--those who have questions for the record should 
get them to our staff immediately. I would strongly suggest by 
the end of tomorrow.
    General Pace, thank you again, and I express our 
appreciation to Secretary Gates. It has been an even five hours 
since we started. Thanks so much.
    [Whereupon, at 6:03 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            January 11, 2007

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 11, 2007

=======================================================================
      
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 11, 2007

=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 11, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. HUNTER

    Mr. Hunter. Will there be at least one Iraqi brigade in each of the 
nine districts? Army brigades?
    General Pace. The initial employment concept for the Baghdad 
security framework is to position at least one Iraqi Army or one Iraqi 
National Police brigade headquarters in each one of the nine security 
framework districts (SFDs). Each of the 9 SFD commands will be 
partnered with a Coalition forces battalion. The purpose of this 
partnership is to increase the capabilities of Iraqi Security Forces 
through combined operations and coaching, teaching, and mentoring at 
all levels. This partnership enhances the capabilities of the 
transition teams and provides a role model for the conduct of 
operations.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. JONES
    Mr. Jones. What are the estimates and additional preparations for 
casualties that are made with the addition of 21,500 troops?
    General Pace. During the past 47 months of conflict in Iraq, there 
have been moderate fluctuations in casualty rates. None of these 
fluctuations were the result of increases or decreases in troop 
numbers, but rather changes in the tactics, techniques, and procedures 
the insurgency was employing to attack US and Coalition forces.
    The deployment of an additional 20,000 troops into the Iraq theatre 
is expected to yield significant results in the security situation in 
Baghdad. By working closely with the Iraqi Security Forces, US Soldiers 
will assist in bringing stability to the Iraqi capital and through this 
move to a more secure environment. The increase in troop level is not 
expected to yield an increase in casualties and for the near term we 
expect to see casualty rates remain consistent. In time, as the 
security situation improves, US Central Command Joint Staff Personnel 
Planners anticipate a corresponding decrease in casualty rates between 
US and Coalition forces.
    The US military and Coalition forces have some of the most advanced 
medical facilities available deployed to provide support to all 
Coalition members engaged in operations. These resources will have the 
capacity to provide the necessary level of care to support our forces 
and manage any change in casualty rates across the Multi-National 
Force-Iraq area of operations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CALVERT
    Mr. Calvert. How do we hold the Maliki government to their 
commitments not to have political or sectarian interference on military 
and police operations? Also what can we do to help them meet those 
commitments?
    Secretary Gates. Based on his conversations with our senior 
leaders, I believe Prime Minister Maliki understands the seriousness of 
the situation and the necessity of action by his government to secure 
Baghdad and reconcile the Iraqi people.
    Demonstrating his willingness to adhere to the commitments, Prime 
Minister Maliki spoke before the Council of Representatives on January 
25th and said:

    <bullet>  ``This is 100 percent an Iraqi plan under an Iraqi 
command.''
    <bullet>  ``The role of our multinational forces has become support 
for our forces.''
    <bullet>  ``The plan is directed . . . against the person who 
violates the law.''
    <bullet>  ``The . . . plan will not be subject to political 
interference.''

    The ongoing deployment of Iraqi Security Forces to augment forces 
in Baghdad is further indication of the commitment of the Government of 
Iraq (GoI).
    We will know the most important aspects of Iraqi compliance over 
the next few months as the additional forces begin operations in 
Baghdad. This will be an indication of the capability and the 
willingness of the GoI to make the tough decisions, and the ability of 
the Iraqi Security Forces to conduct difficult operations.
    The most important thing the U.S. Government can do to help the 
Iraqis keep their commitments is remain committed to the Baghdad 
Security Plan and ensure its success.
    Mr. Calvert. We take for granted the civilian control and the high 
professional standards of our American military, but we did not get 
here overnight and we undergo occasional internal reforms within our 
military such as Goldwater-Nichols to improve cooperation and 
understanding. What is the maturity of civil-military relations in Iraq 
and how are we helping them accelerate through that process?
    Secretary Gates. Since planning for the establishment of the 
Ministry of Defense began in 2003, U.S. policy has been to emphasize 
the importance of civilian control of the military. In 2004, one of the 
first significant programs DoD conducted for the new MOD leadership, 
both civilian and military, was intensive training in the U.S. teaching 
civil-military relations and civilian control of the military.
    Although the Iraqi military leadership's thinking on civil-military 
relations remains shaped by their training in the Saddam era and as 
they are still not accustomed to being subordinate to democratically 
elected civilians; the Iraqi military is carrying out the orders of 
Prime Minister Maliki, the commander-in-chief, as issued through the 
Minister of Defense.
    Mr. Calvert. How would retreat and/or defeat in Iraq effect 
commitments made by us and to us in Afghanistan? How would retreat and/
or defeat in Iraq affect our commitments and operations generally in 
the Global War on Terror?
    Secretary Gates. Assuring the government of Afghanistan the U.S. 
commitment is strategic and long-term is one of the basic aspects of 
our bilateral relationship. A quick withdrawal from Iraq could 
undermine our credibility in this effort in Afghanistan.
    The impact of a retreat and/or defeat in Iraq on the Global War on 
Terror could be as follows:

    <bullet>   the violence in Iraq, if unchecked, could spread outside 
its borders and draw other states into a regional conflagration.
    <bullet>   an emboldened and strengthened Iran;
    <bullet>   a safe haven and base of operations for terrorist 
networks in the heart of the Middle East;
    <bullet>   a humiliating defeat in the overall campaign against 
violent extremism worldwide; and
    <bullet>   an undermining of the credibility of the United States.

    One consequence of a precipitous withdrawal from Iraq is clear: 
radical extremist groups would grow in strength. As a result, they 
would be in a better position to topple moderate governments and create 
chaos in the region.
    It should be remembered that the actors in this region--both 
friends and adversaries--are watching closely what we do in Iraq and 
will draw conclusions about our resolve and the reliability of our 
commitments. And should we withdraw prematurely, we could well leave 
chaos and the disintegration of Iraq behind us.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MARSHALL
    Mr. Marshall. Could you provide us with translations of video of 
Prime Minister Maliki actually saying to the Iraqi people that the plan 
being described by the President is the plan that he supports; that he 
does contemplate mixed units of Iraqis working with Americans in Shi'a 
neighborhoods in Sadr City without restraints?
    General Pace. [The information referred to can be found in the 
Appendix on page 89.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. UDALL
    Mr. Udall. The new commander of U.S. forces in Iraq--Lt. Gen. David 
Petraeus--co-authored a new Army field manual on counterinsurgency. One 
of its many points is that counterinsurgency campaigns need early 
successes to inspire confidence in the local populace. The manual also 
says that in general, successes require a massive superiority in 
manpower. But we're learning that 20,000 troops will in fact be 
mobilized gradually--a brigade or two at a time, over the next few 
months. I'm not sure I understand how a gradual ``surge'' can help our 
prospects for success. Others here have already expressed concerns that 
20,000 troops won't be enough to make a difference. In Baghdad, there 
will be only about 17,000 additional U.S. troops. Can you help me 
understand how just 17,000 troops--deployed gradually--will be able to 
deal with Sunni insurgents and Shiia death squads in a city of 6 
million?
    General Pace. Previous efforts such as ``Operation Together 
Forward'' were moderately successful in reducing the insurgency to 
bring security to the citizens of Baghdad. The lack of Iraqi Security 
Forces as well as American and Coalition troops impeded our efforts to 
secure neighborhoods that defense forces cleared of terrorists and 
insurgent activity.
    It is not US Central Command strategy for the 20,000 deploying 
troops, alone, to provide security in the capital. The strategy 
requires those troops to enable the Iraqi Security Forces to provide 
security; to that end, the deployment of an additional 20,000 US troops 
to Iraq will have a significant impact on the security situation within 
Baghdad. The rate of the deployment, one brigade combat team per month 
starting in January 2007, is less significant than the tasks they will 
be performing. The fight against Sunni insurgents and Shiia death 
squads is a fight that belongs to the elected government of Iraq, to be 
supported by US troops.

The main elements of this effort are as follows:

    The Iraqi Government will appoint a military commander and two 
deputy commanders for its capital. The Iraqi Government will deploy 
Iraqi Army and National Police Brigades across Baghdad's nine 
districts. When these forces are fully deployed, there will be 18 Iraqi 
Army and National Police Brigades committed to this effort, along with 
local police. These Iraqi forces will operate from local police 
stations--conducting patrols and setting up checkpoints, and going 
door-to-door to gain the trust of Baghdad residents.
    Our commitment of additional troops to Baghdad will help bolster 
security forces in the Iraq capital. These troops will work alongside 
Iraqi units and be embedded in their formations. Our troops will have a 
well-defined mission: To help Iraqis clear and secure neighborhoods, to 
help them protect the local population, and to help ensure that the 
Iraqi forces are capable of providing the security needs of Baghdad.
    Mr. Udall. The key to the president's new plan is for the small 
number of additional U.S. troops to be embedded in Iraqi units, playing 
a supporting role since the Iraqi troops will outnumber our forces by 
about 3-1 (the plan calls for one U.S. brigade with every Iraqi 
division). I have a series of questions about this arrangement--Prime 
Minister Maliki promised to contribute six Iraqi battalions last fall 
and only two showed up. What makes you think this time will be 
different? This time you're expecting 60,000 additional Iraqi troops. 
Where will they come from? How confident are you that with an Iraqi 
army made up of roughly 80% Shiites, they can act like a national army 
(not just militias in disguise)? I've read that the Kurdish militia, 
the peshmerga, will be assigned to take on Sadr City, since Shiites 
aren't likely to fight other Shiites. This might be the most realistic 
way to approach Sadr's stronghold, but how can our training of Iraqi 
troops be effective if the army we've trained won't or can't ever take 
on its own? I understand that Lt. Gen. Aboud Gambar (a Shiite) has been 
designated as the overall Iraqi commander of the Iraqi operations. 
Please explain what you know about him and his capabilities. Why do you 
believe he is suited for this position?
    General Pace. It has been made clear to the Iraqis through open 
dialogue from the administration that America's patience is growing 
short and that they must take responsibility. Prime Minister Nuri Kamal 
al Maliki has released several statements since the presidential 
address to the nation, reaffirming his support to this plan and his 
commitment to progress in Iraq. The Iraqi Security Forces are already 
making preparations for the offensive operations, which will occur over 
the next several months.
    The additional troops will come from Iraqi forces already 
conducting operations in Iraq. The Iraqi leadership will conduct their 
own internal mission analysis and determine from where to move 
additional Iraqi units in order to support operations in Baghdad. In 
addition, training and recruitment will continue to allow the Iraq 
Ministry of Defense to maintain the development of its national 
security force.
    We remain confident that the Iraqi Army with a higher percentage of 
Shiites will perform well within the framework of the upcoming 
operations.
    The asymmetrical threat faced by US and Coalition forces in Iraq is 
dynamic. There are elements of foreign fighters in Iraq fighting for 
radical Islamic purposes, there are militias who fight for Shiite and 
Sunni rivalries, and there are criminals who are seeking financial 
gain. The Iraqi Army will be responsible for ensuring each of these 
elements is prevented from committing violent acts. With continued 
effective training and strong national leadership, we expect the Iraqi 
Security Forces to execute its mission in a professional manner. With 
the support and guidance of the embedded US forces, we will bring the 
desired effect to the streets of Baghdad.
    Prime Minister Maliki personally selected Lt. Gen. Aboub as the 
overall Iraqi commander for the Baghdad Security Plan. The selection of 
Lt. Gen. Aboub may signal Maliki's desire to have greater control, via 
an officer he knows well and trusts, than he has had over previous 
security operations. Lt. Gen. Aboub served in the former regime as a 
naval infantry commander and has ties to the Shiia United Iraqi 
Alliance. As of early December, Lt. Gen. Aboub commanded an independent 
military unit directly under Maliki's control, which functioned as an 
expanded personal security detail. Lt. Gen. Aboub has demonstrated his 
support for the lead role Iraqi troops will play in the upcoming 
operations; he will continue to support Prime Minister Maliki in the 
months to come.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MURPHY
    Mr. Murphy. Is there any thought of training them outside so it is 
not necessarily nine to five, where they go home; training them outside 
either in Iraq or remote Iraq where there is one commingled place?
    Is there a thought on changing the way we train these soldiers so 
they can commingle and they understand how to take orders for one Iraq 
and not for one certain imam?
    General Pace. Iraqi Army recruits receive basic combat training at 
one of eight training academies across Iraq. These academies are now 
run solely by Iraqis. The program of instruction includes training on 
the Iraqi chain of command, which emphasizes loyalty to the uniformed 
services above family, ethnicity, or religious affiliation. Five of the 
10 Iraqi Army divisions (all odd numbered divisions) are built using 
soldiers recruited nationally. We have learned lessons from the units 
that were built using soldiers recruited locally, and the Government of 
Iraq is implementing those lessons within their training command.
    Specifically, as part of the Prime Minister's Expansion Initiative, 
the Iraqi Army is establishing a program to train one battalion per 
division as a ``deployable battalion'' in 2d, 3d, 4th, 5th, 8th, and 
10th divisions. This plan is a 4-phased deployment model: Phase I (15 
days)--home station deployment preparations; Phase II (15 days)--
deployment to Besmaya Range for collective training, while receiving 
unit conducts reception training; Phase III (90 days)--deployment to 
operational mission; and Phase IV (30 days)--redeployment and recovery. 
The Ministry of Defense envisions using these deployable battalions in 
operations such as Operation Fardh Al Qanoon, the new plan to secure 
Baghdad. The Ministry of Defense anticipates that these deployable 
battalions will be fully operational capable by the end of 2007.

                                  <all>

</pre></body></html>
